<html>
<title> - IMPLICATIONS OF THE NATIONAL INTELLIGENCE ESTIMATE REGARDING AL QAEDA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-77]

                      IMPLICATIONS OF THE NATIONAL

                    INTELLIGENCE ESTIMATE REGARDING

                                AL QAEDA

                               __________

                             JOINT HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 25, 2007



                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
45-513                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK E. UDALL, Colorado              ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            BILL SHUSTER, Pennsylvania
DAVID LOEBSACK, Iowa                 THELMA DRAKE, Virginia
KIRSTEN E. GILLIBRAND, New York      CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             K. MICHAEL CONAWAY, Texas
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant
                                 ------                                
            HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                    SILVESTRE REYES, Texas, Chairman
ALCEE L. HASTINGS, Florida           PETER HOEKSTRA, Michigan
LEONARD L. BOSWELL, Iowa             TERRY EVERETT, Alabama
ROBERT E. ``BUD'' CRAMER, Jr.,       HEATHER WILSON, New Mexico
    Alabama                          MAC THORNBERRY, Texas
ANNA G. ESHOO, California            JOHN M. McHUGH, New York
RUSH D. HOLT, New Jersey             TODD TIAHRT, Kansas
C.A. DUTCH RUPPERSBERGER, Maryland   MIKE ROGERS, Michigan
JOHN F. TIERNEY, Massachusetts       DARRELL E. ISSA, California
MIKE THOMPSON, California
JANICE D. SCHAKOWSKY, Illinois
JAMES R. LANGEVIN, Rhode Island
PATRICK J. MURPHY, Pennsylvania
          Nancy Pelosi, California, Speaker, Ex Officio Member
       John A. Boehner, Ohio, Minority Leader, Ex Officio Member
                    Michael Delaney, Staff Director













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 25, 2007, Implications of the National 
  Intelligence Estimate Regarding al Qaeda.......................     1

Appendix:

Wednesday, July 25, 2007.........................................    57
                              ----------                              

                        WEDNESDAY, JULY 25, 2007
 IMPLICATIONS OF THE NATIONAL INTELLIGENCE ESTIMATE REGARDING AL QAEDA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hoekstra, Hon. Peter, a Representative from Michigan, Ranking 
  Member, Permanent Select Committee on Intelligence.............     5
Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Reyes, Hon. Silvestre, a Representative from Texas, Chairman, 
  Permanent Select Committee on Intelligence.....................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Clapper, Hon. James R., Jr., Under Secretary of Defense for 
  Intelligence; accompanied by Mary Beth Long, Acting Assistant 
  Secretary of Defense for International Security Affairs; Peter 
  F. Verga, Acting Assistant Secretary of Defense for Homeland 
  Defense; Michael E. Leiter, Principal Deputy Director of the 
  National Counterterrorism Center and Director of the 
  Interagency Task Force on Homeland Threats, Office of the 
  Director of National Intelligence; and Edward Gistaro, National 
  Intelligence Officer for Transnational Threats, Office of the 
  Director of National Intelligence, beginning on page...........     8

                                APPENDIX

Prepared Statements:

    Clapper, Hon. James R., Jr...................................    78
    Gistaro, Edward, joint with Michael E. Leiter................    94
    Hoekstra, Hon. Peter.........................................    71
    Hunter, Hon. Duncan..........................................    68
    Reyes, Hon. Silvestre........................................    63
    Sanchez, Hon. Loretta, a Representative from California, 
      Committee on Armed Services................................    76
    Skelton, Hon. Ike............................................    61

Documents Submitted for the Record:

    Declassified Key Judgments of the National Intelligence 
      Estimate ``Trends in Global Terrorism: Implications for the 
      United States'' dated April 2006...........................   103

Witness Responses to Questions Asked During the Hearing:

    Ms. Eshoo....................................................   109
    Mr. Issa.....................................................   109

Questions Submitted by Members Post Hearing:

    Mr. Hunter...................................................   113
    Mr. Skelton..................................................   113
 
IMPLICATIONS OF THE NATIONAL INTELLIGENCE ESTIMATE REGARDING AL QAEDA

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Meeting Jointly with the Permanent 
            Select Committee on Intelligence, Washington, 
            DC, Wednesday, July 25, 2007.

    The committees met, pursuant to call, at 1:13 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the Armed Services Committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, let me welcome today's 
panelists. Joe Clapper, thank you for being with us, Secretary 
Long, Secretary Verga, Mr. Leiter and Mr. Gistaro. Everyone is 
here. So thank you.
    This is a very special hearing today, as you will soon 
learn, that this is pretty much a once-in-a-decade hearing, and 
we appreciate you being with us today.
    We convene to examine and discuss the implications of the 
recent National Intelligence Estimate, also known as NIE. We 
are joined by and welcome our colleagues from the Intelligence 
Committee.
    The NIE is entitled: The Terrorist Threat to the U.S. 
Homeland. The unclassified key judgments contained within 
include pronouncement that the most persistent threat facing 
the U.S. homeland over the next three years is the one posed by 
terrorists and especially al Qaeda. As a Nation, we find 
ourselves in this strategic situation after pouring billions of 
dollars and thousands of troops into Iraq. This tremendous 
sacrifice has diverted our Nation from the real war on terror 
and subjected the Nation to an unacceptable level of risk.
    This committee has spent a great deal of time looking at 
the strain on our service members as well as on our equipment. 
We are tasked with ensuring that our military is ready to 
respond to the next contingency wherever it may be. But we must 
also ensure that we can deal with today's threats, and I am 
deeply concerned that we have not paid sufficient attention to 
the places that threaten us the most.
    Chasing windmills has kept our eye off the more important 
struggle, the ones with roots in Afghanistan. The recent NIE 
points this picture out clearly, an unstable region within the 
borders of Pakistan described as strong and resurgent al Qaeda, 
that warns of a heightened threat environment. In short, it is 
not good news.
    We have asked today's panelists to join us for a discussion 
about the scope of the NIE, its assumptions, its implications 
for our Nation.
    As chairman of the Armed Services Committee, I am also 
concerned about the implications for the Department of Defense 
(DOD). Must we re-examine the Department of Defense's force 
posture? Must we re-assess the Department of Defense's 
modernization priorities? Must we revamp the Department's 
policies in order to address the near-term-threat scenario? 
These are the pressing questions that I look forward to further 
examination.
    Let me first then recognize the chairman of the 
Intelligence Committee, Mr. Silver Reyes, for any comments he 
may have; and then I will go to Ranking Member Hunter and 
Ranking Member Hoekstra; and I will have some administrative 
comments shortly thereafter. Mr. Reyes.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 61.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
      CHAIRMAN, PERMANENT SELECT COMMITTEE ON INTELLIGENCE

    Mr. Reyes. Thank you, Chairman Skelton. Good afternoon.
    As chairman of the House Permanent Select Committee on 
Intelligence, I am pleased at this opportunity to conduct our 
work in open session and to convene a hearing with my 
colleagues on the House Armed Services Committee. Especially 
since I also serve as a member of the Armed Services Committee, 
I know how closely our committees work together to safeguard 
our Nation and empower our military and intelligence 
professionals.
    I want to also add my personal welcome to our panel of 
experts.
    When focusing on an issue as important as al Qaeda, which 
is the topic of today's hearing, it is critical that our 
committees work closely together. I want to thank my good 
friend and colleague, Ike Skelton, the chairman of the House 
Armed Services Committee, for his leadership and his 
partnership, as well as our two ranking members, Mr. Hunter and 
Mr. Hoekstra.
    Today, we will specifically focus on the resurgence of al 
Qaeda as reflected in the July 2007, National Intelligence 
Estimate entitled: The Terrorist Threat to the U.S. Homeland. I 
would like to thank our witnesses for joining us here today 
because your testimony will help our committees work together 
to examine this very critical issue to our country.
    Our efforts to defeat al Qaeda and protect our Nation are 
not separate intelligence or military issues. In order to 
defeat this most urgent threat, all instruments of our national 
power must work together seamlessly. This joint hearing 
reflects that approach.
    Four years ago, President Bush told the American people 
that al Qaeda was on the run and that they are not a problem 
anymore. However, the NIE released earlier this month indicates 
that today our Intelligence Community believes otherwise. The 
NIE states that the U.S. homeland will face, and I quote, a 
persistent and evolving terrorist threat over the next three 
years and that al Qaeda has regenerated key elements of its 
homeland attack capability.
    Essentially, the NIE reflect that al Qaeda is not just a 
problem but the most serious threat to our Nation's security. 
This is a grave issue, and it is critical that Congress know 
how our country can protect itself and ensure that this does 
not happen again.
    One of our main challenges is that, while the Bush 
Administration assumed al Qaeda was no longer a threat, the 
Administration has focused our resources in Iraq. This war, 
which costs the American people approximately $10 billion a 
month, has diverted needed funds and personnel from eliminating 
the threat of al Qaeda.
    The NIE, however, points out that the al Qaeda threat 
emanates from Afghanistan and Pakistan and not Iraq, and the 
United States has missed critical opportunities to address that 
threat. Moreover, there are signs that the war in Iraq has had 
an even greater negative impact. It appears that our presence 
in Iraq may actually be helping al Qaeda.
    As the 2006 National Intelligence Estimate on terrorism 
noted, the war in Iraq has become a recruiting tool and 
training ground for terrorists; and, as the new NIE assesses, 
al Qaeda's association with al Qaeda in Iraq helps al Qaeda 
raise funds and recruit operatives, including for attacks 
against our country.
    These are critically important issues to the American 
public, and I look forward today to a productive hearing that 
will not only tell us more about the threat laid out in the NIE 
but how we can best fight this threat more effectively. The men 
and women of the U.S. Intelligence Community, the men and women 
of the U.S. Armed Forces and the American public as a whole 
deserve this careful consideration.
    Finally, as I have consistently noted since assuming the 
chairmanship of the House Intelligence Committee, the threat of 
terrorism is not a political issue. There is no room for 
partisan politics in the realm of national security. So I look 
forward to working with all of my colleagues, both Republicans 
and Democrats, to further safeguard our Nation; and, as always, 
I invite all of them to work with us.
    Thank you again for joining us here today, and thank you to 
the members of our respective committees who are here as well.
    I would now like to turn it back over to the chairman.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 63.]
    The Chairman. I thank the gentleman.
    The gentleman from California, the ranking member of the 
House Armed Services Committee, Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    I want to thank you and House Intelligence Committee 
Chairman Reyes for holding the hearing on a topic that I think 
is very critical to both committees, and let me join you in 
welcoming our witnesses today. I think it is important that 
they are here.
    Over the last week or so, we have been bombarded by lots of 
public statements that I think have ignored or misrepresented, 
innocently or intentionally, the findings of the latest 
National Intelligence Estimate. So, to our witnesses, your 
testimony is therefore timely and welcome, as it should 
hopefully correct many misstatements that are currently 
circulating.
    I think this summary captures what the Intelligence 
Community and the policymakers and other experts have said 
about the al Qaeda threat and what many will point to as a most 
important finding in the NIE, and that is that al Qaeda is 
resurgent.
    As we discuss the terrorist threats that confront our 
homeland, we are going to examine our security strategy based 
on what the enemy is doing and could possibly do. However, we 
can't lose sight that the summary that we provided is very much 
the same view of the situation as al Qaeda's; and I think we 
have to remember that, in 2004, Osama bin Laden said this, and 
I quote: The world's millstone and pillar is in Baghdad, the 
capital of the Caliphate.
    And later Zawahiri, his number two and principal 
strategist, clearly laid out al Qaeda's strategy for Iraq; and 
he said, and I quote: The first stage, expel the Americans from 
Iraq. The second stage, establish an Islamic authority or 
emirate, then develop it and support it until it achieves the 
level of a Caliphate. The third stage, extend the jihad wave to 
the secular countries neighboring Iraq. Unquote.
    Al Qaeda has been waging an offensive war against us and 
our values for a lot of years, and the group's clearly stated 
desire is to see us, the West, and the freedom that we 
represent defeated and destroyed.
    Bin Laden's view of the importance of Iraq has never 
wavered, nor his desire to attack us again on our soil. Yet, 
despite al Qaeda's effort to break our will, we are also 
resurgent, in our view, and continue to deny the very 
opportunities bin Laden hopes to exploit.
    The recent surge in Iraq--and I would commend all my 
colleagues to take a look at especially the activities in Anbar 
Province and the progress that our Marines have made there. But 
the recent surge in Iraq, our continued strong military 
presence in Afghanistan and our unwavering dedication to the 
Iraqi and Afghan people have pushed al Qaeda back. Our 
worldwide efforts, as mentioned in the National Intelligence 
Estimate, have constrained al Qaeda in its operations.
    I would just say to folks who find it extremely unusual 
that we have not sustained another attack on American soil, I 
would remind my colleagues that we have had an aggressive, 
forward-leaning operation against al Qaeda since the strike on 
9/11. It is difficult to plan an attack when some of your 
planners don't show up at the meeting because they have been 
killed or captured; and that is what has happened on many, many 
occasions.
    I think we have got to put today's discussion in 
perspective. I am greatly concerned with al Qaeda's resurgence 
in the Pakistani tribal area of North Waziristan, and I have 
expressed my concern in a February letter to the President on 
that point.
    In al Qaeda, we are facing a determined, persistent foe who 
demands our continued dedication and resolve. They pose a 
continuing and grave threat to our Nation. We all know that. We 
can't focus our efforts solely on the group's physical base in 
the border region of Afghanistan and Pakistan, or in Iraq. It 
seeks to export violence from these regions not just to 
neighboring countries but also to the U.S. homeland. It seeks 
to inspire violent cells in Europe, Africa, Asia and the United 
States.
    I think we people who thought that the operations were 
confined to Iraq and to Afghanistan were shocked from this view 
with the events that took place in Great Britain a couple of 
weeks ago. It seeks to use cyberspace and emerging technologies 
to facilitate its operation, and it seeks to terrorize our 
nations with violence.
    But, most of all, al Qaeda seeks to break our will; and 
that is something we cannot allow. We have a say in what 
happens, and we cannot limit our perspective on the threats 
that we face and the impact we can have on those threats.
    So, Mr. Chairman, I look forward to the testimony and 
discussion of today's hearing and especially as we hear about 
the actual assessments found in the NIE, the National 
Intelligence Estimate, not the many misstatements circulating 
in the press.
    As the National Intelligence Estimate rightly states, al 
Qaeda poses the greatest terrorist threat to our Nation, but 
the estimate addresses a much broader range of terrorist groups 
and threats, and I truly hope that we will examine the overall 
terrorist assessment and what we can do to address the myriad 
threats we face. Let's not limit our perspective and discussion 
to a narrow portion of this very important subject.
    Mr. Chairman and Chairman Reyes, thank you for bringing 
this very important joint hearing to our respective committees. 
I look forward to the testimony.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 68.]
    The Chairman. I thank the gentleman from California.
    Now the ranking member on the Intelligence Committee, the 
gentleman from Michigan, Mr. Hoekstra.

    STATEMENT OF HON. PETER HOEKSTRA, A REPRESENTATIVE FROM 
    MICHIGAN, RANKING MEMBER, PERMANENT SELECT COMMITTEE ON 
                          INTELLIGENCE

    Mr. Hoekstra. Thank you, Chairman Skelton. It is good to be 
with you and Chairman Reyes and Ranking Member Hunter.
    It is also good to welcome this distinguished panel to be 
with us today. Thank you for being here.
    Mr. Chairman, I want to start out today by pointing to a 
critical piece of intelligence, perhaps the most important 
piece of actionable intelligence written in the unclassified 
NIE. It states, quote: We judge that the United States 
currently is in a heightened threat environment, end of quote.
    When you read a statement like this, it is impossible to 
not have your thoughts returned to 9/11, that fateful morning 
when al Qaeda attacked the United States in a way that none of 
us will ever forget. I think of what I felt that day. I can 
only imagine what the families who lost loved ones faced on 
that day. I can only think of the emotions that went through 
this Nation as we watched this attack and the aftermath played 
out on live TV.
    When I think of all this, I can only help but ask one 
question, have we as a Congress done all we can to strengthen 
our intelligence capability to protect our homeland? Have we 
given the people who are in front of us today the necessary 
tools to keep us safe? Have we sufficiently prepared the Nation 
for the long struggle we face in the fight against radical 
jihad?
    Unfortunately, Mr. Chairman, today we have to answer to 
that question ``no.'' We have assembled before us top officials 
of DOD intelligence and counterterrorism; and for the next 
several hours we will subject them to all manner of speeches, 
questioning, while ignoring perhaps the one critical area the 
Director of National Intelligence (DNI) has told all of us, 
told Congress and the American people, the tool that he needs 
and the tool that needs our attention today. It is a 
comprehensive modernization of the Foreign Intelligence 
Surveillance Act (FISA).
    Testifying before the Senate Select Committee on 
Intelligence, Director McConnell explained the problem very 
clearly. Quote: There are circumstances in which the government 
seeks to monitor for purposes of protecting the Nation from 
terrorist attacks the communications of foreign persons who are 
physically located in foreign countries, and the government is 
required under FISA to obtain a court order to authorize this 
collection. End of quote.
    Further explaining the challenge, Director McConnell has 
stated: We are missing a significant portion of what we should 
be getting. End of quote.
    The Director of National Intelligence is telling us we are 
missing vital intelligence that our Nation should be collecting 
to protect our homeland, foreign intelligence from foreign 
terrorists in foreign countries, and we can't collect it.
    The NIE that we are going to be talking about today says we 
judge that the United States currently is in a heightened 
threatened environment. If I haven't ever heard a clearer call 
for action, this is it. This is a wake-up call for Congress and 
for America. At a time of increased threat, we are handicapping 
ourselves in the fight against al Qaeda and radical jihadism.
    The hearing we should be having right now, that we should 
have had already and should have completed, is one on moving 
legislation to fix this FISA problem and close this terrorism 
loophole. We have a known intelligence problem, we face a 
heightened terrorist risk, we have a simple fix to address one 
of the major FISA problems, and we have over a week before 
Congress goes on recess.
    Al Qaeda is not going to take a break. They haven't taken a 
break while this loophole existed, they won't take a break 
until we fix it, if we fix it, and they won't take a break 
while we take a recess during August. Congress needs to fix it, 
and we need to fix it before we go on recess.
    Why? In a video released on July 5 entitled: The Advice of 
One Concerned, Zawahiri lays out al Qaeda's strategy which was 
built on the notion that, in this world, there are outlying 
states in places such as Asia and Africa and other parts of the 
world and there are the core states. They are the center of the 
global system. Who are the core states? America and the 
European Union.
    The tape goes on. Quote: The only way to confront them, 
according to al Qaeda's theory, is by taking the war from the 
outlying states to the central states or the core states, in 
which case the damage and the consequences of this damage will 
take place in the central states. End of quote.
    It means that they are planning and they want to attack us 
here in the United States. The tale of the tape is clear, al 
Qaeda believes it is winning in Iraq, laying the foundation for 
a post-America Caliphate with its center there and ultimately 
extending the jihad wave to the rest of the world.
    If al Qaeda intends to fight us globally and here in the 
homeland, we must be prepared to do the same. We cannot expect 
to leave one part of the battlefield without consequences on 
another part. In short, it is my fear if we precipitously leave 
Iraq, al Qaeda has every intention of following us home.
    With that, Mr. Chairman, I look forward to hearing what the 
witnesses have to say about the NIE key judgments that we face 
a heightened terrorist risk, what challenges the Intelligence 
Community faces in collecting against those terrorist threats 
and what they are doing to address those challenges and any 
recommendations they have for Congress to strengthen our 
intelligence capabilities against a terrorist threat.
    With that, I yield back the balance of my time. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Hoekstra can be found in the 
Appendix on page 71.]
    The Chairman. I thank the gentlemen.
    Before I recognize Secretary Clapper and the other 
panelists for opening statements, let me offer a few 
administrative comments, if I may.
    Let me first suggest that you make your comments as 
succinct as possible. Without objection, each of your prepared 
statements will be placed in the record. Those on the Armed 
Services Committee are used to my comments staying in 25 words 
or less. You can say it in a few more words than that, but do 
your best to condense your comments because there will be a 
good number of questions.
    Let remind everyone we are in open session. We should 
refrain from any discussion of classified information. A closed 
briefing will be held immediately after this session, and 
members should proceed to room 2216. I remind everyone that 
classified matters can be discussed in the follow-on meeting, 
not here before us today.
    Also, given the large size of the gathering, we intend to 
strictly adhere to the five-minute rule and recognize those 
present at the time of the gavel according to the seniority and 
alternate between the majority and the minority in the 
respective committee memberships.
    Members arriving after the gavel with be recognized in 
accordance with the order of the arrival, again, alternating 
from majority to minority.
    Ladies and gentlemen, 5 minutes means 5 minutes, not 5 
minutes and 15 seconds, because we really need to get as many 
in as we can.
    With that, Secretary Clapper, we appreciate you being with 
us today, and each of you. The floor is yours, General.

  STATEMENT OF HON. JAMES R. CLAPPER, JR., UNDER SECRETARY OF 
DEFENSE FOR INTELLIGENCE; ACCOMPANIED BY MARY BETH LONG, ACTING 
   ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY 
AFFAIRS; PETER F. VERGA, ACTING ASSISTANT SECRETARY OF DEFENSE 
   FOR HOMELAND DEFENSE; MICHAEL E. LEITER, PRINCIPAL DEPUTY 
 DIRECTOR OF THE NATIONAL COUNTERTERRORISM CENTER AND DIRECTOR 
 OF THE INTERAGENCY TASK FORCE ON HOMELAND THREATS, OFFICE OF 
  THE DIRECTOR OF NATIONAL INTELLIGENCE; AND EDWARD GISTARO, 
NATIONAL INTELLIGENCE OFFICER FOR TRANSNATIONAL THREATS, OFFICE 
            OF THE DIRECTOR OF NATIONAL INTELLIGENCE

            STATEMENT OF HON. JAMES R. CLAPPER, JR.

    Secretary Clapper. Thank you, Chairman Skelton, Chairman 
Reyes, Congressman Hunter, Congressman Hoekstra, and 
distinguished members of the committees.
    First, let me thank you both or thank you all for your 
strong support for the Department of Defense and for the 
Intelligence Community and for conducting this unique two-
committee hearing, which is symbolic of the confluence of the 
Department of Defense and the Intelligence Community.
    We are here, as you indicated, this afternoon to discuss 
the implications of the recent National Intelligence Estimate 
on the terrorist threat to the homeland. A couple of 
introductory comments.
    As I said in my confirmation hearing in March, as Under 
Secretary of Defense for Intelligence, I am not in the business 
of doing analysis or producing intelligence, so I am not going 
to produce any new intelligence here today.
    Second, I am supported by subject matter experts whom I 
would like to introduce from the Department of Defense: Mr. 
Peter Verga to my immediate left, the Acting Assistant 
Secretary for Homeland Defense; and, to his left, Ms. Mary Beth 
Long, Acting Assistant Secretary of Defense for International 
Security Affairs. To my right, from the Office of the Director 
of National Intelligence, Mr. Mike Leiter, who is the Deputy 
Director of the National Counterterrorism Center and the 
Director of the Interagency Task Force on Homeland Threats; 
and, to his right, Mr. Edward Gistaro, National Intelligence 
Office for Transnational Threats and a principal author of this 
National Intelligence Estimate.
    Six years after September 11th, 2001, we have not suffered 
a successful attack on our homeland. This is not for lack of 
will on the part of our enemy. Al Qaeda and al Qaeda extremists 
have carried out terrorist attacks in more than two dozen 
nations since 9/11. Al Qaeda has and will continue to attempt 
visually dramatic mass casualty attacks here at home; and they 
will continue to attempt to acquire chemical, biological, 
radiological and nuclear materials. And if they are successful 
in obtaining these materials, we believe they would use them.
    As the NIE makes clear, we face a resilient and resourceful 
enemy that will make every effort to protect and regenerate key 
elements of its capability to attack us and others.
    Allow me to make three points about this NIE and what it 
means for our current security environment. The findings of 
this estimate are not a surprise. We are at work with an enemy 
not confined in national boundaries or a single ethnic group. 
Our fight against extremists in Iraq, Afghanistan and around 
the world has kept our Nation safe from attacks here at home.
    This war, like all wars, is not an engineering project. The 
task and challenges cannot be laid out ahead of time and 
accomplished according to a predetermined schedule. As the 
troops say, the enemy gets a vote. We must and will continue to 
transform and adjust and respond accordingly.
    The NIE makes it clear that our operations in Iraq are not 
distinct from the war on terror. To quote what I consider a 
most salient point in the NIE, al Qaeda will probably seek to 
leverage the contact and capabilities of al Qaeda in Iraq, its 
most visible and capable affiliate.
    Mr. Chairman and members of the committees, thank you for 
your attention. We look forward to your questions, and I 
appreciate your willingness to accept our statements for the 
record.
    [The prepared statement of Secretary Clapper can be found 
in the Appendix on page 78.]
    Secretary Clapper. I believe Mr. Gistaro has an opening 
statement as well. Mr. Chairman, if I may defer to Mr. Gistaro.
    The Chairman. Mr. Gistaro, I suppose after you give your 
testimony--to whom do we go next, General?
    Secretary Clapper. That is, I believe, it. There are two 
opening statements, myself and Mr. Gistaro.
    The Chairman. Fine. Mr. Gistaro, please.

                  STATEMENT OF EDWARD GISTARO

    Mr. Gistaro. Mr. Chairman, members of the committee, thank 
you very much for having us here today. I will be very brief, 
since the unclassified key judgments have been submitted to the 
record.
    [The information referred to can be found in the Appendix 
on page 103.]
    I think one important thing for the committee to understand 
is this is an estimate that couldn't have been written several 
years ago. It is because of congressional reforms, it is 
because of the DNI, it is because of the Intelligence Reform 
Act, it is because of the Weapons of Mass Destruction (WMD) 
Commission findings that we were able to have a brand new 
community participate and produce this estimate.
    Certainly we have the traditional members of the 
Intelligence Community fully involved--Central Intelligence 
Agency (CIA), Defense Intelligence Agency (DIA), the National 
Security Administration (NSA), National Geospatial Intelligence 
Agency (NGA) and others. I think what was new were our new 
partners in the community--National Counterterrorism Center 
(NCTC), Department of Homeland Security (DHS) and the Federal 
Bureau of Investigation (FBI). I think it is very important to 
note that they were full participants from the beginning in the 
production of this estimate and particularly when we are 
dealing with threats to the U.S. homeland, threats from 
homegrown terrorist groups and threats from single-issue 
terrorist groups that the FBI follows very closely. It was 
their input that made this estimate possible. I think for that 
point it is very important for the Intelligence Community that 
this paper was produced and we were able to produce it as a 
new, broader community.
    I will not go into the key judgments at this time, sir, 
since they are part of the record and out of respect for the 
committee's time. Thank you.
    [The joint prepared statement of Mr. Gistaro and Mr. Leiter 
can be found in the Appendix on page 94.]
    The Chairman. As I understand it, General, Mr. Leiter, Mary 
Beth Long, Mr. Verga do not have opening statements.
    Ms. Long. That is correct.
    Secretary Clapper. That is correct.
    The Chairman. Then if those are the prepared opening 
statements, I will resume mine and call upon the chairman of 
the Intelligence Committee, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    First, a couple of points that I think are very important. 
We have learned many things post-9/11, one of which has been 
that, as we give our military and law enforcement agencies 
every conceivable tool that we can in order to protect us, we 
also have to be mindful that we don't want to have the 
terrorists succeed by compromising the rights of our American 
citizens. I think that is a basic and fundamental 
responsibility of the Congress.
    I say that because when we provided the legislation, the 
PATRIOT Act, we provided some key tools that now we have found 
have been used inappropriately. One example was the national 
security letters that were utilized by the FBI.
    I think it is important that we do our business in a very 
careful and orchestrated, regular way; and I think it is 
vitally important that all of us understand that, in terms of 
addressing whatever changes need to be made under the Foreign 
Intelligence Surveillance Act, as my ranking member mentioned, 
we want to do that. We want to give and make the adjustments 
that are necessary, but we also want to be careful doing that.
    So, over the course of the last month, month and a half, we 
have been having hearings to address that very issue. We have 
been trying to understand exactly what issues and what problems 
those that have had to work with FISA have had to address as 
they went about their business. At some point in the fall, we 
will look at whatever legislative fixes need to be made.
    A lot I think depends on information that you give us about 
the threat, and certainly the NIE is one issue that we want to 
be very careful in evaluating. But I also think that we don't 
want to be stampeded to make changes that ultimately we may 
have to change because we didn't do it carefully and in a 
regular way.
    So we are addressing those kinds of issues. We don't want 
to do something that is not carefully thought out.
    In that vein, there are some options that we are looking at 
to be able to perhaps give the Director of National 
Intelligence the flexibility to do the kinds of things that he 
has told us are necessary. So we are not just sitting on our 
hands. We are working very quickly and very importantly in a 
structured way to get to that.
    But I guess one of the fundamental questions that I would 
like the panelists to address is the following. It is two 
parts. I want to know if the war in Iraq has made Iraq a more 
hospitable situation for al Qaeda than it was before the U.S. 
invasion, number one. Number two, is al Qaeda using our 
presence in Iraq to help recruit terrorists around the world? 
And what specifically is al Qaeda doing, as you pointed out in 
the NIE, to be a concern to us in the way that it is gathering 
strength? Answer that question with three parts.
    Mr. Gistaro. Yes, sir.
    With regard to the second part first, sir, the Community 
sees three different ways that Iraq impacts the threats to the 
U.S. homeland.
    First, al Qaeda in Iraq (AQI) is the only affiliate of al 
Qaeda that has stated its intention to attack the U.S. 
homeland. That is number one.
    Number two, we are concerned that the al Qaeda core in 
Pakistan might be able to leverage some of the capability of al 
Qaeda in Iraq for its own plotting against the U.S. homeland.
    Third, sir, as you pointed out, al Qaeda in Pakistan, 
Afghanistan has made the conflict in Iraq a central point in 
its own propaganda; and it has used the conflict there to raise 
resources, recruit and to energize the broader extremist 
community to focus on attacks against western interests, U.S. 
interests and the U.S. homeland.
    With regard to your first point, sir, as the President 
spoke yesterday, Zawahiri pledges allegiance to bin Laden in 
2004. We certainly see very close ideological ties between al 
Qaeda in Iraq and al Qaeda core. We see shared experiences and 
personal histories between the leaderships in the 
organizations, and we see some overlapping of certain 
facilitation networks.
    Al Qaeda in Pakistan tries to provide strategic guidance 
and encouragement to AQI, but it also defers to AQI to make 
tactical decisions on the ground with regard to its operations 
inside of Iraq.
    The Chairman. Thank you, Mr. Chairman.
    Mr. Hunter, please.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, you have made clear in your statements that al 
Qaeda wants to attack America. I guess my first question would 
be, is there compelling evidence for the securing of the 
southern border of the United States against that backdrop? I 
am talking about the 2,000-mile southern border.
    Mr. Leiter. Congressman, there is no doubt that al Qaeda 
has an expressed interest in penetrating U.S. homeland defenses 
either through legitimate or illegitimate means. In that 
regard, the southern border clearly poses a challenge for the 
U.S. Government to secure the entire homeland.
    Mr. Hunter. Second, you have made a point also that al 
Qaeda has established what we denied them in Afghanistan in the 
initial campaign, which is safe haven. And it was done 
initially after the Pakistan forces made a deal with tribal 
leadership and in that narrow strip of land, the Waziristan 
area, to the effect that they would pull out Pakistan forces in 
return for vague assurances that the tribes would not work with 
and would ``distance'' themselves from al Qaeda, as vague as 
that sounds.
    In recent times, the Pakistan government has reacted, now 
has sent in some military forces. There has been some contact 
and some confrontation. Give me your view on whether the 
Pakistan reaction is adequate, whether it is working, whether 
it is working to deny safe haven and to scrub that area or 
whether it is simply a symbolic reaction, a ceremonial 
reaction.
    Mr. Gistaro. Sir, at this point, let me make two points. In 
the estimate, we talk about the global counterterrorism efforts 
that have been very effective over the last five years. I think 
we have to give a tremendous amount of credit to Pakistan, 
which has been a critical ally in this fight. President 
Musharraf has faced at least three assassination attempts 
personally because of his assistance to us.
    Some of the most critical arrests that have occurred of 
senior al Qaeda members have occurred in Pakistan by the 
Pakistanis. As you noted, sir, they have lost hundreds of their 
soldiers and police in this fight. We have to give them credit 
for that.
    I think al Qaeda is now in a part of Pakistan that is 
largely inaccessible to Pakistani forces. The Pakistani 
government always has been and it is a difficult operating 
environment for them.
    I think the efforts that you refer to, sir, are only in the 
first week or so of implementation; and so at this point it is 
much too early to try to provide an assessment of the impact of 
these latest Pakistani moves on the safe haven in the Federally 
Administered Tribal Areas (FATA).
    Mr. Hunter. Why do you say they are inaccessible?
    Mr. Gistaro. I think there are a number of different 
reasons. The topography is very hostile, very barren. I think 
the population that does exist there has always been outside 
the control of Islamabad and is sympathetic to al Qaeda both in 
terms of its religious ideology as well as their tribal 
traditions of hospitality to outsiders. It is a very difficult 
environment for outside forces to operate in.
    Mr. Hunter. I understand it is difficult, but it is not 
inaccessible. The 10th Mountain Division soldiers have gone up 
to 10 and 12,000 elevations in Afghanistan and carried the 
fight to the enemy. Has the Pakistan government indicated that 
they are not going to try to penetrate these areas at all, or 
are they trying to penetrate them?
    Mr. Gistaro. Sir, we are rapidly getting outside my area of 
expertise.
    Mr. Hunter. I will pursue that later. Let me just ask one 
last question.
    Clearly, al Qaeda has now been involved in high-visibility 
bombings of civilian populations in Iraq that have been spread 
across not only American television, international television, 
but television in the Arab world. Has that diminished the 
popularity of al Qaeda, the bombings of civilians? In newscasts 
which identify the bombings as being attributed to al Qaeda, 
has that diminished their popularity in the general Muslim 
community worldwide? What is your take on that?
    Mr. Gistaro. Sir, to the extent that we can measure how 
those attacks are broadcast on Arab television and such, I 
don't think we have detected an increase in the criticism of 
AQI. But what I would like to do, sir, is take that question 
for the record and get you a more authoritative answer.
    Mr. Hunter. Thanks.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Hunter. Thanks, Mr. Chairman.
    The Chairman. Thank you, Mr. Hunter.
    Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    I think, as the panel has stated, AQ in Iraq has become 
affiliated with AQ core or al Qaeda, as we historically know 
it, is that correct?
    Mr. Gistaro. Yes, sir.
    Mr. Hoekstra. Operating then with bases in Pakistan, 
Afghanistan, in Iraq?
    Mr. Gistaro. I am sorry?
    Mr. Hoekstra. Having bases or located in Pakistan, 
Afghanistan and in Iraq?
    Mr. Gistaro. Yes, sir.
    Mr. Hoekstra. And that--probably attempting to communicate 
on a regular basis between those locations to share strategy 
and direction.
    Mr. Gistaro. Yes, sir. But I think, because of U.S. and 
allied efforts in both the south Asia theater and in Iraq, that 
ability to communicate at times is quite difficult.
    Mr. Hoekstra. That at some times we may have disrupted it.
    We also have established that they pretty much have a 
similar series of objectives, which is to be successful in 
Iraq, destabilize the region, eliminate the State of Israel, 
attack the West and establish the Caliphate, is that correct?
    Mr. Gistaro. Yes, sir.
    Mr. Hoekstra. They have set it in different orders at 
different places. They share the objective of attacking the 
United States and the West.
    Mr. Gistaro. Yes, sir.
    Mr. Hoekstra. And it is possible that as they are 
communicating, or trying to communicate, they might--is it 
reasonable to assume that they might try to share information 
about the type of training that might be necessary to attack 
the U.S.?
    Mr. Gistaro. Yes, sir. I think a lot of that destructive 
expertise is made public on the Internet.
    Mr. Hoekstra. It may also be appropriate they will try to 
talk about how they may finance an attack against the West or 
the United States?
    Mr. Gistaro. I have not seen evidence of that, sir.
    Mr. Hoekstra. If they are going to plan on attacking the 
United States, wouldn't we expect they would be talking about 
how they would finance an effort like that?
    Mr. Gistaro. That is entirely possible, sir.
    Mr. Hoekstra. Wouldn't they also have to talk about who 
would carry out an attack like that?
    Mr. Gistaro. That is also possible, sir.
    Mr. Hoekstra. What the target would be.
    Mr. Gistaro. Possibly.
    Mr. Hoekstra. Methods.
    Mr. Gistaro. Yes, sir.
    Mr. Hoekstra. The timing.
    Mr. Gistaro. Possibly.
    Mr. Hoekstra. I mean, isn't that the kind of information 
that you as an Intelligence Community are trying to get from al 
Qaeda? If you believe that they are going to attack the United 
States, that you are trying to figure out where are they 
training for this, how are they financing it, who is going to 
do it, what the methods are, what the timing would be?
    Mr. Gistaro. Yes, sir.
    Mr. Hoekstra. And a lot of that communication would be 
happening in the areas where they are located, which would be 
the ungoverned areas in Pakistan and what AQ in Iraq is doing.
    Mr. Gistaro. I think that is a possibility, sir, but, 
again, we do not see that.
    Mr. Hoekstra. You do not see that. Is perhaps part of the 
reason we don't see that is that is the kind of information 
that the Director of the DNI is talking about when he says that 
we are missing significant parts of information?
    Mr. Gistaro. Sir, I think as a Community, and certainly as 
reflected in the estimate, we take very seriously our own 
intelligence gaps and what we do not know.
    Mr. Hoekstra. Again, it is not the primary focus, but this 
is just pointing out and highlighting this kind of information 
as to the financing, the participants. This information that we 
are trying to get when foreign terrorists are communicating in 
foreign locations, that is the kind of information that we need 
to get and that we are significantly blind to, at least as 
Director McConnell has identified it.
    I hope again that this is an issue that we address before 
we recess and go on break in August.
    With that, I will yield back the balance of my time. Thank 
you, Mr. Chairman.
    The Chairman. Thank the gentlemen.
    According to my information sheet here, going down the list 
of those who were here when the gavel went down, Mr. Cramer 
from Alabama, five minutes.
    Mr. Cramer. Thank you, Mr. Chairman. I thank all the 
chairmen and ranking members, witnesses for this opportunity 
today, as tough as it is in this open hearing, to address 
issues that are at this level of sensitivity.
    Based on what I have heard so far, are you saying that al 
Qaeda and al Qaeda in Iraq are one and the same organization?
    Mr. Gistaro. The way the relationship is described in the 
NIE is al Qaeda in Iraq is an affiliate organization to al 
Qaeda in south Asia.
    Mr. Cramer. Let me help you with that. Then the answer to 
that is, yes, they are basically one and the same organization?
    Mr. Gistaro. Sir, as the President described yesterday, we 
are dealing with al Qaeda that has a decentralized command and 
control structure; and I don't want to leave a false impression 
that we are talking about a monolithic organization.
    Mr. Cramer. So if, as the NIE reflects, we are concerned 
about a threat to the homeland here, who calls that shot from 
al Qaeda?
    Mr. Gistaro. The primary concern is al Qaeda in south Asia 
organizing its own plots against the United States. What we are 
concerned about is that AQI, as the most visible and capable 
affiliate of al Qaeda, has also expressed an interest in 
attacking inside the United States.
    Mr. Cramer. What kind of presence did al Qaeda have in Iraq 
in 2003?
    Mr. Gistaro. Sir, by 2003, Zarqawi had established his 
presence inside the country; by 2004, he was pledging his 
loyalty to bin Laden.
    Mr. Cramer. Can you measure or compare their presence in 
2003 versus their presence in Iraq today?
    Mr. Gistaro. Sir, beyond the top leadership, I think that 
is a question we would either have to answer in closed 
session----
    Mr. Cramer. All right. Then I will defer that to the closed 
session.
    In the NIE, it states that the threat from al Qaeda is 
through greater cooperation with regional terrorist groups. 
What are those regional terrorist groups?
    Mr. Gistaro. Sir, in addition to AQI, we are very concerned 
about the Sunni jihadist groups in north Africa, formally known 
as the GSPC (Groupe Salafiste pour la Predication et le 
Combat), now again pledging loyalty to al Qaeda and renaming 
themselves al Qaeda in the Maghreb.
    Mr. Cramer. And to what extent is al Qaeda capable of 
placing operatives in the United States? Or, in your opinion, 
do they have operatives already in the United States; and, if 
so, in what number? Generally speaking.
    Mr. Gistaro. Sir, we do not see and the FBI does not see al 
Qaeda figures here inside the United States with links back to 
the senior leadership at this time. What the NIE talks about is 
our concern that we see increased efforts on the part of al 
Qaeda to try and find, train and deploy people who could get 
into this country.
    Mr. Cramer. And then--``why'' questions are always tough--
why haven't we eliminated the threat in al Qaeda leadership in 
Pakistan?
    Mr. Gistaro. Sir, as we talk about in the paper, I think 
the critical variable here is safe haven and being able to find 
a physical space in what is essentially the wild west of the 
tribal areas of Pakistan with which to rebuild capabilities.
    Mr. Cramer. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank the gentleman.
    The gentleman from New Jersey, Jim Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Secretary Clapper, please feel free to refer this question 
to whoever on the panel may be the most appropriate to answer 
it, or yourself.
    In 2006, it appeared from here that al Qaeda pretty much 
had their run and could go wherever they wanted, do whatever 
they wanted pretty much in Iraq, with the exception of where 
our Special Forces and others got in their way. More recently, 
we have seen press reports and other reports that in the al 
Anbar Province the tribal leaders turned against al Qaeda and 
essentially banished them from that province. More recently, we 
have seen evidence that the same thing is happening in the 
Province of Babil, of Diyala, of Salah ad Din, of Ninawa and in 
Baghdad itself.
    Would you give us an update on that or please have somebody 
tell us what you know about that.
    Secretary Clapper. Sir, I read the same reporting; and I 
think this is in large measure a case of the enemy of my enemy 
is my friend. I think this is a case of increasing 
disenchantment with AQI on the part of many people in Iraq. So 
that is a trend that appears to be emerging.
    Mr. Saxton. What does that mean to us from the standpoint 
of our involvement in the conflict in Iraq?
    Secretary Clapper. Well, I think it reflects the effect of 
our sustaining the attacks on the offensive against AQI; and, 
more specifically, I think it is a reflection of the 
effectiveness of the surge.
    We all look forward to the report that General Petraeus and 
Ambassador Crocker are expected to render in September about 
what the significance of these indications mean.
    Mr. Saxton. Do you think that part of it may be that the 
tribal leaders and those fathers and mothers in the tribe are 
observing what it is that al Qaeda is about and have decided 
they don't want it for their children?
    Secretary Clapper. Sir, that is certainly possible. I don't 
purport to be the expert on what the dynamics are, but I would 
think that sort of thing certainly plays out in their minds.
    Mr. Saxton. Thank you.
    Let me ask another question. I happen to represent the town 
in New Jersey, Cherry Hill, where the Fort Dix--the group that 
became known as the Fort Dix Six were arrested. The indictment 
against them said that they were inspired by al Qaeda, and I am 
wondering what that means to us exactly and also what role the 
Internet play in bringing groups like that together and 
providing training opportunities for them and also if we know 
whether groups such as the Fort Dix Six have direct contact of 
any kind with al Qaeda members outside the country.
    Mr. Leiter. Congressman, certainly the Fort Dix Six 
represent something which is becoming an increasing concern for 
us over the past several years and that is radicalized, violent 
extremists within the United States who are, as you said, 
inspired by al Qaeda. It is something that both the Department 
of Homeland Security and the FBI and the National 
Counterterrorism Center focus much of our attention on.
    We have not--as I believe Mr. Gistaro mentioned, we have 
not received any communication between those individuals and 
senior al Qaeda leadership. That is certainly something that we 
fear, but it is not something that we have seen.
    With respect to the use of the Internet and the value of 
the Internet, undoubtedly al Qaeda and other violent extremist 
groups have come to use the Internet quite effectively both for 
communication, direct person-to-person e-mail, also for 
radicalization through Web sites, as well as propagating 
information about how to build and use certain weapons.
    Mr. Saxton. Have you any evidence that there are other 
groups that are of similar nature that currently exist in the 
states?
    Mr. Leiter. Congressman, I think for both intelligence and 
law enforcement reasons it would be inappropriate for me to 
comment in the open session, but we would be happy to talk to 
you in closed session.
    Mr. Saxton. Thank you very much.
    The Chairman. Thank you very much.
    Mr. Smith from the State of Washington.
    Mr. Smith. Thank you very much, Mr. Chairman.
    A couple of questions I want to focus on, al Qaeda's 
strength in Iraq and then the best way for us to policy and 
different ways to get at them in their safe haven in the FATA 
region of Pakistan.
    Focusing on the strength in Iraq piece, we have heard a lot 
about how a lot of the local Iraqis have turned on al Qaeda, 
and I think Mr. Saxton points out a lot of good reasons for 
that. What is our assessment now of their relative strength 
with the Iraqi population? Certainly they have the ability to 
commit terrorist acts. Do they still have some number of Iraqis 
who are sympathetic with them actively working with them?
    I know at one time they had very sophisticated in some 
towns sort of almost their own little government structures set 
up in different towns and different places. Does that still 
exist in some places? Do they still have the Iraqi support? Or 
have they descended down to the point where primarily their 
strength is simply the foreign fighters coming across the 
borders giving them the strength to make attacks?
    If you can assess what their strength with the population 
is. I ask that because a safe haven requires some support from 
the local population.
    And juxtaposing that with the situation with Pakistan where 
they seem to have that support from the local population, how 
should we go about upending that support? The local tribal 
leaders have clearly given safe haven in the FATA to elements 
of al Qaeda. What is our best way to work with Pakistan to 
uproot them?
    I have a bias there; and that bias is I don't think 
threatening Pakistan and saying you have to do more, you have 
to do more is the best way to do that. We need to show Pakistan 
we are a long-term partner. By and large, I think the Bush 
Administration has done that. I want to make sure that we don't 
change course.
    If you could hit those two areas, whoever you think it best 
to answer it, I would appreciate it.
    Secretary Clapper. Let me take a stab at it, and I will 
defer to others.
    I think, as Mr. Gistaro indicated, we have to give Pakistan 
credit for what they attempted to do. With respect to the FATA, 
President Musharraf has embarked on a longer-term program of 
social improvement, economic improvement in the ungoverned 
areas, but this will only have payoff on a long term, certainly 
probably beyond the timeframe of the NIE, which was three 
years.
    Mr. Smith. Is there hope, in your opinion, for getting the 
tribal leaders to sort of turn on al Qaeda in a similar way 
they did in al Anbar in the FATA?
    Secretary Clapper. I don't think we should have great 
expectation of this, given the tribal dynamics in the FATA. But 
as well, though, I think we would be remiss, as the Pakistani 
government would be remiss, without attempting to make some 
positive changes in the quality of life, if you will, of the 
tribes in that area. However, there are deep-seated, long, 
historical dynamics that I think are going to make that a 
challenge.
    As well, I think we have also attempted to provide 
assistance to the Pakistani government, the Frontier Corps and 
their ability to observe improvement in intelligence 
surveillance reconnaissance, sharing actionable intelligence 
with the Pakistanis, providing equipment, helicopters, night 
vision goggles and the like to help them better observe what is 
going on and take appropriate action.
    This is going to be a long-haul process, not something that 
is going to occur, certainly I don't think a demonstrable 
change within the three-year timeframe of the NIE.
    Any other comments?
    Mr. Smith. If you could hit the Iraq piece, because my time 
is limited. I agree with you, and I think we need to make that 
long-term commitment to Pakistan as a matter of policy, we in 
Congress as well as the Administration.
    If you could hit the Iraq piece, al Qaeda's strength there.
    Mr. Gistaro. Sir, estimates vary within the Intelligence 
Community as to the size of AQI. I think it is safe to say most 
would agree there are several thousand members in the 
organization. Ninety percent of those members, those foot 
soldiers are going to be Iraqis, we believe.
    In terms of the motivation for people joining, it differs I 
think based on what part of the country. If you are in a mixed 
area, AQI's argument that you have to join up to protect your 
Sunni brothers and sisters from the Shi'a is a more compelling 
argument. If you are in a place like al Anbar, I think they 
probably try to use the religious argument.
    Mr. Smith. They are not having a lot of success right now.
    Mr. Gistaro. No, sir, especially in a place like Anbar. I 
think people have decided that that harsh, coercive form of 
Islam is not what they want to live under.
    Mr. Smith. The big judgment--and I know al Qaeda wants to 
control Iraq. A year ago they stated that they did, even though 
they didn't. So there is no question that is their ambition. 
Isn't it highly unlikely, given the situation with the Shi'a, 
the Kurds, the way the Sunnis feel about them, that al Qaeda 
would have the local support necessary to get any meaningful 
control of Iraq?
    Mr. Gistaro. Sir, I think if you go back to the Iraq 
estimate of January of this year, it talks about not taking 
over the country per se but pockets within Iraq that they might 
be able to exploit.
    Mr. Smith. Thank you, Mr. Chairman.
    The Chairman. Thank the gentlemen.
    The gentleman from New York, John McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. Thank you, gentlemen 
and good lady, thank you for being here.
    Mr. Secretary, you probably heard the opening reference by 
the distinguished chairman of the Intelligence Committee about 
the 2006 NIE. I just happen to have a copy of it. It speaks 
about Iraq being a recruiting tool cause celebre, in the 
terminology of the NIE. Do you recall that document from 
memory? I know this is not precisely on point of our topic 
today.
    Mr. Gistaro. Yes, sir.
    Mr. McHugh. Let me put it a different way. You would agree 
that it is the assessment of the Intelligence Committee or 
Intelligence Community that Iraq is serving as a recruiting 
mechanism for al Qaeda in Iraq?
    Mr. Gistaro. Yes, sir.
    Mr. McHugh. I think that it is interesting in 2006 the 
document then went on to say, ``Should jihadists leaving Iraq 
perceive themselves and be perceived to have failed, we judge 
fewer fighters would be inspired to carry on the fight.''
    Does that mean the way to beat their recruiting is to beat 
them? Is that what it was saying?
    Mr. Gistaro. Sir, as I read that key judgment, I think it 
is more focused on the people who are actually inside of Iraq 
right now fighting us.
    Mr. McHugh. Let me ask it a different way.
    What kind of recruiting tool for al Qaeda, in general, at 
large would an American defeat in Iraq serve?
    Mr. Gistaro. Sir, I think the two estimates do make the 
judgment that if al Qaeda perceives a victory in Iraq, that 
that will embolden them, and they will use that for their own 
purposes to generate resources and enthusiasm for their cause.
    Mr. McHugh. As you pursue in the multiheaded hydra of 
Iraq--and let us agree that they are not all the same, yet they 
are creating affiliations--do you think Iraq and Afghanistan is 
an either/or situation, or do you think we ought to be focusing 
on potential success in both?
    Secretary Clapper. Well, I think we should--this is a 
global--it is a global campaign, and so I don't think it is 
zero sum or either/or. It is both.
    Mr. McHugh. So when some suggest that, you know, we are 
diverting resources away from Afghanistan, away from the 
mathematical judgments that may assume, you would agree, 
perhaps, that our actions in Iraq are indeed important in the 
war against al Qaeda?
    Secretary Clapper. Yeah. Absolutely, yes, sir.
    Mr. McHugh. I thank you.
    I was interested in the line of questioning that the 
distinguished Ranking Member of the Intelligence Committee had, 
where I believe it was correctly stated that you don't have any 
indication, no sources, no information that these groups are 
having contact in the United States. It seemed to be a total 
lack of threat, is that--or certainly lack of information as to 
your ability to assess the threat.
    Mr. Leiter. Congressman, what I would say is we have 
strategic warnings of al Qaeda's intent to strike either 
Western Europe or the homeland. We continue to look at various 
individuals throughout the world to try and determine their 
links to al Qaeda or other al Qaeda affiliates.
    Mr. McHugh. So, thus, the reason for the heightened threat 
level in the United States, even though we don't have any 
specific threat against the homeland; am I correct in that?
    Mr. Leiter. Correct.
    Mr. McHugh. I would also say--thank you, gentlemen.
    I would also say that I certainly, from my perspective on 
both this committee, the Armed Services Committee, and the 
Intelligence Committee, I think that Mr. Hoekstra's opening 
comments about concerns with respect to the adaptability and 
the efficiency and effectiveness of FISA, as we know how it 
operates and how it is not operating, now to demand our 
immediate attention, not in the fall but now.
    I share the Chairman's and others' concerns very deeply 
that we have to have a balanced approach in how we authorize 
our intelligence services. If the cost of defeating the 
terrorists is the loss of our basic pillars of freedom, then it 
is a pretty hollow victory.
    But there are things about FISA that I think we have 
learned very clearly--and I hope we get a chance to talk a bit 
about this more in the closed session. That is, not bringing 
into question American citizens' rights that totally involve 
the ability to find out what foreign terrorists and foreign 
places are saying, doing, thinking, and threatening to do 
against the United States, and we ought to be acting now.
    I thank you, Mr. Chairman.
    The Chairman. Thank the gentleman. His time has expired.
    The gentleman from California, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    In May of 2003, President Bush said that al Qaeda is on the 
run, that the group of terrorists who attacked our country is 
slowly but surely being decimated, and right now about all of 
the top al Qaeda operatives are either jailed or dead. In 
either case, they are not a problem anymore.
    In the 2006 NIE, you said that we had seriously damaged the 
leadership of al Qaeda and disrupted its operations.
    And now today in the 2007 NIE you say that al Qaeda has 
rebuilt its capabilities and that they are in a safe haven and 
they are doing well.
    What happened? How do we lose this ground? How do we go 
from on the run in 2003, to today, where al Qaeda is rested, 
training, and successfully recruiting new al Qaeda members?
    Mr. Gistaro. Sir, with regard to the two National 
Intelligence Estimates, if you take the 2006 estimates, I think 
the next sentence in that key judgment says that al Qaeda will 
remain the greatest terrorist threat to the U.S. interest and 
U.S. homeland in 2006.
    Mr. Thompson. I understand that. But we went from a well-
stated position where we are gaining the upper hand, to a 
position now where they are in a safe haven, they have 
increased their training, they have increased their recruiting. 
They are gaining great success, and we should be very concerned 
about that. What happened?
    Mr. Gistaro. I think the key development there is they were 
able to relocate their leadership node to an area where it was 
much more difficult to get at them.
    Mr. Thompson. This is the Federal Administrative Tribal 
Areas?
    Mr. Gistaro. Yes, sir.
    Mr. Thompson. What happened? We took our eye off of them? 
We allowed them to reoperate, regroup and replenish?
    Mr. Gistaro. Sir, I think an alternative way to look at 
that is we took away the safe haven in Afghanistan. They went 
to urban areas in Pakistan. Working with the Pakistanis, we 
pushed them out of the urban areas of Pakistan.
    Mr. Thompson. Was Osama bin Laden and al Qaeda in Iraq when 
we went into Iraq?
    Mr. Gistaro. No, sir.
    Mr. Thompson. Where did we take the safe haven away from 
them?
    Mr. Gistaro. Afghanistan, the urban areas of Pakistan. We 
pushed them out of the urban areas of Pakistan to South 
Waziristan. And then in about March of 2004, the Pakistanis 
went in and pushed them out of South Waziristan. They relocated 
to North Waziristan and other places in the Pak/Afghani area. 
Much more difficult for the Pakistanis to find them and do 
something about it.
    They used that safe haven to regenerate the operational 
leadership that is involved in developing and executing 
external operation.
    Then we also saw cases that the top leadership was able to 
exploit that comfort zone in the tribal areas to exert a little 
more influence on the organization. And then the fourth 
component is we see their operational tempo of bringing people 
in to train for Western operations picking up.
    Mr. Thompson. As I recall, Secretary Rumsfeld had called 
off a raid on senior al Qaeda members in that Pakistan area 
because he thought it was going to create a--or stated that it 
was going to create a rift between our allies and Pakistan and 
our country.
    Were those press reports correct?
    Secretary Clapper. Sir, we looked at that and actually did 
not pin that down to a specific case in point. Operations are 
planned and occasionally called off for a variety of reasons. 
They are reviewed, you know, at subsequent levels. So I don't 
know about the specific case. It could well have happened.
    Mr. Thompson. Can you comment on our relationship with our 
Pakistani allies today and whether or not Musharraf is doing 
all that he could do to let us operate in, and his forces also 
operating in the Federal Administrative Tribal Area, to go 
after these safe havens?
    Secretary Clapper. Well, if the criterion is the Pakistani 
government doing 100 percent of what we might like, probably 
not. I do think, though----
    Mr. Thompson. In your judgment, are they doing all that 
should be done in order to ferret out these safe havens?
    Secretary Clapper. I think they are doing what they can, 
given the constraints that were--that Mr. Gistaro previously 
outlined with the dynamics, et cetera----
    Mr. Thompson. I hate to interrupt.
    Can we count on these safe havens continuing to be safe for 
quite some time to come?
    Secretary Clapper. No, sir. I think our objective will be 
to neutralize, not eliminate but certainly make this safe 
haven, as we have the others, less safe and less appealing for 
AQ.
    Mr. Reyes [presiding]. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Gistaro, what is the date that the NIE was issued?
    Mr. Gistaro. Sir, I believe it was last Tuesday.
    Mr. Thornberry. So the key judgment that we are under a 
heightened threat is applicable for last Tuesday?
    Mr. Gistaro. Yes, sir.
    Mr. Thornberry. It is not a heightened level of threat for 
this fall? It is a heightened level of threat now.
    Mr. Gistaro. Sir, I think what we said was because of al 
Qaeda's undiminished intent to attack us here, because we see 
the regenerating capability that we are entering a heightened 
threat environment for the duration of the three-year time 
estimate on the paper.
    Mr. Thornberry. So that heightened threat level will 
continue until you tell us different, I guess, or you have 
other facts, something else happens that in some way reduces 
that threat?
    Mr. Leiter. If I may, I want to draw a slight distinction 
between the National Intelligence Estimate and the daily 
counterterrorism intelligence that we process.
    In that regard, we do think we are in a heightened threat 
of strategic warning right now. And whether or not the three-
year period stays the same, we have a separate and distinct 
heightened concern now.
    Mr. Thornberry. Okay. Thank you.
    Mr. Gistaro, I want to ask about one other thing. In the 
public key judgments of the NIE, it seems to me you put a lot 
of emphasis on evolving threat, adaptable enemy; they are 
watching what we do and they change accordingly.
    Seems to me in that situation, information is more critical 
for us than ever about who is doing what and what methods they 
are looking at and that sort of thing; would you agree?
    Mr. Gistaro. Yes, sir.
    Mr. Thornberry. I am interested. In the opening statements, 
a couple of times it was mentioned that the al Qaeda threat 
emanates from the Pak/Afghan border. And you just had a number 
of questions about the safe haven that they have been allowed 
to establish again.
    But a number of authors and scholars would say that we are 
putting too much emphasis in some ways on a physical location. 
As a matter of fact, somebody I heard recently said al Qaeda 
has an ideology that has become a movement.
    And I would like for either of the two of you to address 
that.
    If we were to wipe out every al Qaeda person in the 
Pakistan and Afghanistan area, does that mean we can start 
carrying shampoo onto airplanes again? Does that mean we don't 
have to screen all cargo, which apparently is in a bill that we 
are about to vote on?
    Talk to me about safe havens, and if we knock out number 
one and number two, does that mean we don't have to worry 
anymore?
    Mr. Gistaro. Sir, I think all of the things you just listed 
would definitely have an impact on the threat that we face. I 
think it is important to know that later in the key judgments, 
we really do talk about and focus on that globalization and 
technology developments mean that people are able to become 
alienated, find others who share their alienation, become more 
radicalized, group together and find destructive expertise, 
without ever having gone to a training camp or put themselves 
in contact with a terrorist leader.
    The homegrown terrorist threat, I think that is much more 
enduring.
    Mr. Thornberry. Mr. Leiter, that is where I want to go 
because the thing that has concerned me the most--I think the 
military folks are doing a good job. We are doing, with some 
exceptions in intelligence, we are doing okay. But I worry 
about a national strategy to combat the ideology. NCTC has that 
tasking to develop a national strategy that goes across 
military and--but combating a movement, an ideology that has 
become a movement, is not something we do very well. Can you 
reassure me that we are doing better than it looks like we are?
    Mr. Leiter. I absolutely agree. Ideology, you can take 
everyone out of the FATA but the ideology will live on to some 
extent. The national implementation plan the President signed 
and approved in June 2006 sets forth four strategic objectives. 
One of those four is winning the war of ideas. And that plan is 
a blueprint for the entire U.S. Government. And it is not just 
the people sitting up here. It is the State Department, 
Department of Homeland Security, it is all of the departments 
that deal with the quote/unquote, ``war of ideas.'' And I think 
that plan, which has now been in place for about a year, we 
have seen some progress. For example, the creation of a 
counterterrorism messaging center within the State Department 
under Secretary Karen Hughes.
    These are initial steps.
    There is no doubt that when we call this a long war, it is 
because ideology and extremists' views are not reversed 
overnight, and I believe that we have to attack this and work 
at this at all levels, the most extreme, and also into the 
liberal elites of the Muslim world.
    Mr. Thornberry. I hope we can develop a greater sense of 
urgency on that as well as the other issues.
    Thank you, Mr. Chairman.
    Mr. Reyes. Thank you, Mr. Thornberry.
    Ms. Tauscher.
    Ms. Tauscher. I think the reason we are at somewhat of a 
wide variance on importance of what is happening right now is 
because there is a wide variance of what is happening in the 
two NIEs. These are documents that are not similar, in my mind, 
having read both of them. If they had been transposed--for 
instance, last week was the 2006 document--I would certainly 
feel a lot better.
    The problem is that the 2006 document is kind of like a 
sleeping pill; take it and you are going to feel better 
tomorrow. Unfortunately, we woke up and we have the 2007 NIE 
which set my hair on fire. It is unambiguous about the current 
threat, and it says to me that we have not been successful in 
dealing with the threat of al Qaeda, its ability to recruit, 
its ability to reconstitute itself.
    And that something--I am suspicious--that something we have 
been doing has caused us to not be able to defeat what everyone 
has agreed for a very long time is our number one enemy: people 
that really, really want to kill us and are really trying hard 
to do it.
    And I think that if we all kind of agree on where we are 
right now, if that is true, then we have every reason to be 
concerned.
    What is it that has caused us to not find and kill Osama 
bin Laden? Because he is hiding in the FATA?
    Mr. Gistaro. Ma'am, if I could just address the difference 
between the two NIEs, I think they are different papers trying 
to answer different questions.
    The 2006 estimate was really looking at the underlying 
trends driving extremism within the Sunni community worldwide. 
This paper that we are discussing today is much more tightly 
focused on intent and capabilities to attack us here. And I 
think that those different--the different focus of the two 
papers may explain why we have different language and 
perceptions. They have radically different----
    Ms. Tauscher. With all due respect, they seem like they are 
written by different people, with different methodologies, 
setting a framework for people to understand.
    This is the difference between, gee, I am really worried 
there may be something happening up the street, you may want to 
walk faster. That is one set of comments. The other is run, 
run, run, run for your life. That is the difference between 
these two documents.
    Now, if you are trying to tell me that this is about 
somebody writing in a different style or that different 
methodologies were used, I don't really think that is what you 
mean to have me believe.
    Mr. Gistaro. No, ma'am. I think they were trying to answer 
fundamentally different questions.
    Ms. Tauscher. Can I make a suggestion? Until the problem 
changes, until we find and kill Osama bin Laden, that is all I 
really want from you people is to tell me what the status of al 
Qaeda is and whether they have, in fact, reconstituted 
themselves, which is what you tell us they have, that they have 
refinanced themselves, that they have rested, that they have 
actually franchised themselves into Iraq and probably other 
places, all the time while I think many of us thought, and 
certainly my constituents believed, that we were trying to get 
them.
    Mr. Leiter. If I may, there is a historical event which, to 
at least some degree I can talk about in open session, which 
changed this trend, which is the North Waziristan peace 
agreement. And Pervez Musharraf has noted the agreement that 
was signed for North Waziristan has not necessarily helped 
eliminating the safe haven in the FATA. So that was something 
that was just before the 2006 NIE.
    Ms. Tauscher. But with all due respect, you have gone 
through the chronology of 2001 to 2007, where you basically 
said this is like a balloon; you push here, it bubbles out over 
there. We have watched them hop, skip, and jump pretty much 
with freedom and ability to reconstitute from Afghanistan to 
Pakistan urban areas to South Waziristan to North Waziristan. 
They can move pretty much where they want in that whole entire 
area, and have for the last seven years. And we haven't found 
them and killed them.
    Mr. Leiter. Respectfully, ma'am, some of them have been 
found and killed, and I would just note that it is not a 
constant trend either way. We have had ups and downs. The 
elimination of the Afghan safe haven did diminish capabilities 
for a period, and they did reconstitute somewhere, and they 
were chased from the urban areas, and they did reconstitute 
somewhere.
    Ms. Tauscher. Well, if I can make a suggestion. I think 
these NIEs have to be congruent with each other. They have to 
be side-by-side documents. We have to have a way to look at 
them and say, this is what you told me the last time and this 
is where we are going up or down. Simply a little thing like 
this or a little thing like that can be very helpful.
    We can't have this complete divergence as we have had in 
these two documents, because it causes a tremendous amount of 
anxiety for the population when they hear about the NIE on 
divergence, and for those of us who think we are watching this 
closely, to see such a swing from what our expectations have 
been--that we have actually decapitated these guys in 2006, and 
now they are traveling around wherever they want 
reconstituting, refinancing, and being more robust.
    Mr. Leiter. And my last note would be, ma'am, that the NIEs 
really are snapshots in time so they don't come out all that 
often.
    Ms. Tauscher. You better take them from the same camera 
because the pictures have got to look a little bit familiar.
    Mr. Leiter. I would say the stream of intelligence we have 
seen has tried to provide those regular updates.
    Ms. Tauscher. I will yield back.
    Mr. Reyes. Thank you.
    Mr. Wilson.
    Mr. Wilson. I would like to thank you all for being here 
today. And I particularly appreciate your sincerity and your 
concern that indeed we are in a long war. We are in a global 
war.
    I, in reading the national intelligence report, was, like 
so many people here, so saddened to see the regeneration of al 
Qaeda and particularly to see that it is coming from the 
ungoverned tribal areas of Pakistan. I have had the opportunity 
to visit Pakistan four times. I visited with President 
Musharraf. It hasn't been stated here today, but he himself, he 
has been subject to at least four assassination attempts by 
Lashkar-e-Taiba (LET), affiliated with al Qaeda.
    I actually feel like President Musharraf is doing the best 
and his military is doing the best that they can under the 
circumstances, and indeed maybe they have learned a tragic 
lesson based on the treaty that they had in Waziristan.
    Additionally, I see it in their interest to create border 
security with Afghanistan, which is beneficial to Afghanistan. 
Additionally, to create border security with India. India has 
lost 60,000 people due to cross-border terrorism coming out of 
Pakistan.
    But we truly are--I am very grateful for the government of 
Pakistan, and I think it is to the interest of the people of 
Pakistan that there be stability.
    Another point I want to make, too, is that with the 
terrorist threat emanating largely out of the ungoverned tribal 
area of Afghanistan, I believe that it shows that our troops 
are indeed on the offense in Iraq, in Afghanistan, and this is 
stopping the terrorists' capabilities of a direct threat to the 
United States. And so I am more grateful than ever for the 
American military being on the offense.
    It has been stated that the great concern we have are safe 
havens. The Washington Post has identified that if we are not 
successful in Iraq, that safe havens would be created with 
terrorist training camps to attack the United States.
    I would like to know--is this the issue of safe havens? Is 
this how an insurgency, a terrorist organization, can best 
threaten the American--or worst threaten the American people?
    Mr. Gistaro. Sir.
    Mr. Reyes. Can I ask you to pull your microphone pretty 
close?
    Mr. Gistaro. Sir, I think we have identified physical space 
where people can come, gather, and plot as a fairly important 
ingredient in the ability of terrorists to develop and execute 
a plot.
    That said, it is not absolutely required. We see 
indications that people are able, without ever going to a camp 
or safe haven, able to radicalize themselves, find like-minded 
individuals, gain destructive expertise and actually conduct 
attacks.
    Mr. Wilson. Three weeks ago, we had the extraordinary 
circumstance of physicians in England and London and then at 
Glasgow. Has it been determined what training they had or what 
was the inspiration? And indeed the attack on the Glasgow 
airport certainly should concern the American people. That 
looked like any school in the United States. It looked like any 
supermarket.
    We need to understand the threat to our country as 
evidenced by Glasgow.
    Mr. Leiter. Congressman, we are working very, very closely 
with the British intelligence and law enforcement officials, 
and we certainly look at what happened there and try to apply 
that to preventative measures here in the United States. Beyond 
that, because of very strict British laws, I think it is 
difficult for us to comment in open session.
    Mr. Wilson. And additionally, the success of killing al 
Qaeda leadership of Algeria, Egypt. Zarqawi himself in Iraq has 
stated that there hadn't been progress. Well, indeed, the 
leadership around the world has been killed, even though 
obviously they have successors.
    But, again, I want to thank you for your efforts and look 
forward to the balance of your presentation.
    Mr. Reyes. Thank you, Mr. Wilson.
    Mr. Andrews.
    Mr. Andrews. Thank you.
    I would like to ask Secretary Clapper, in your--in the NIE, 
the public part of it says the main threat comes from Islamic 
terrorist groups themselves, especially al Qaeda, driven by 
their undiminished attempt to attack the homeland.
    On a scale of 1 to 10, 10 being the most lethal and 
imminent threat, how much of a threat to the U.S. homeland is 
al Qaeda in Iraq?
    Secretary Clapper. It is difficult to put it on a scale. I 
just would reiterate what the NIE stated, though, about the 
professed intent of AQI.
    Mr. Andrews. I understand about intent. I am asking about 
capability. On a scale of 1 to 10, what is their capability to 
attack the homeland?
    Mr. Gistaro. Sir, as the Intelligence Community has looked 
at this issue, the judgment that they have stated is that 
currently the bulk of AQI's resources are focused on the battle 
inside of Iraq.
    Mr. Andrews. So is that a 10 or is it a 1?
    Mr. Gistaro. Sir, one of the things we tried to avoid in 
this estimate was to try and put a number like that, because it 
can just be misinterpreted.
    Mr. Andrews. Or perhaps misused.
    I would ask a similar question about al Qaeda in the FATA 
areas.
    How do you assess its relative capability to attack the 
homeland from the FATA areas? Is it greater than AQI in Iraq?
    Mr. Gistaro. Sir, as we look at both intent and 
capabilities, I think with regard to AQ in South Asia, the 
intent is totally undiminished in terms of capabilities, the 
core elements of the capability they need to attack us here. We 
see a negative trend from our standpoint in terms of safe 
haven, leadership, and training and recruitment of operatives.
    Mr. Andrews. Are they more capable or less capable of 
attacking us from the FATA relative to Iraq?
    Mr. Gistaro. We are primarily concerned with al Qaeda in 
South Asia.
    Mr. Andrews. So they are more capable in the areas of the 
FATA than they are in Iraq, right?
    Mr. Gistaro. Yes, sir.
    Mr. Andrews. Secretary Clapper, if we were to put aside the 
difficulties with Pakistani politics, which is--I know we can't 
do, but if the Pakistanis would let us do whatever we wanted to 
in the FATA areas diplomatically, intelligence-wise, 
militarily, to the extent that you would want to answer that 
question in this forum, what would that be? What is the optimal 
situation for us in the FATA areas?
    Secretary Clapper. Well, I think probably a greater freedom 
of action, first on the part of Pakistanis themselves. Even 
though they have done a lot, if they could do more, and if 
there were, I think, speaking personally, probably more freedom 
of action on our part to engage in Pakistan.
    I might ask Ms. Long----
    Mr. Andrews. Let me ask a question.
    If we received a report this afternoon that there was plans 
fairly well along the line and we felt it was in our interest 
to intercede with a Special Forces strike, are we able to do 
that?
    Secretary Clapper. Well, yes, sir. We would be.
    Mr. Andrews. Why did you hesitate?
    Secretary Clapper. Just was thinking about the extent to 
which I would want to discuss that in open session.
    Mr. Andrews. Okay. No. I understand that.
    What suggestions that you could give us in open session 
would you make as far as moving us closer to that optimal 
position you just described? As a Congress, what could we do 
that would help us move toward a situation where we have 
greater freedom of movement in the FATA areas?
    Secretary Clapper. I think if we simply continue the 
efforts we have now underway, particularly the continuation of 
the dialogue with President Musharraf, working with his 
military, administrative interior, the aid and assistance that 
we have flowing to Pakistan, I think we need to continue that 
and, of course, accordingly would--we would hope the Congress 
would support that.
    Mr. Andrews. I think you understand this, but I want to say 
it.
    The American people, both Republican and Democrat, want 
this job done by the United States to the extent that that is 
achievable. We do not want to farm this one out. If it can be 
done, we want it done by our people.
    Mr. Verga. I wouldn't want the American people who might be 
watching this to get the impression that if there were 
information or opportunity to strike a blow to protect the 
American people in the FATA that we would not take immediate 
advantage of that opportunity.
    Mr. Andrews. Thank you. I yield back.
    Mr. Reyes. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    Thank you gentlemen, and lady, for being here.
    I am intrigued by a couple of points and actually struck by 
the same things that Ms. Tauscher and Mr. Thornberry were. So 
let me ask you this, because when you look at the two NIEs, it 
creates a great deal of consternation.
    Is it possible that--well, let me put it to you this way: 
Is our intelligence and understanding that much better, or is 
our situation that much worse?
    Mr. Gistaro. That is an excellent question, sir.
    I think it is probably a little bit of both. I think one of 
the reforms in the NIE process that has been instituted under 
the DNI is that no NIE is sacred and that when we are going to 
produce a new one, you don't start with the last NIE and assume 
that one is absolutely true and you just have to go on from 
there. You go back and do a zero-based intelligence review.
    Mr. Cole. So we sort of need to look on our understanding 
as evolving here and very difficult to say we got it right 
then, so what we know now, we can draw a very straight line 
from it.
    Mr. Gistaro. As part of our trade craft, we absolutely try 
to avoid that mind-set. That said, I think the intelligence has 
changed in the last year. And the judgments in the current NIE 
are driven by the intelligence we have seen in the last year.
    Mr. Cole. Let me also ask you this. Again, I agree very 
much with Mr. Thornberry's comments that we are dealing as much 
with the movement as we are with a man or a group of men or an 
organization.
    If we got what everybody up here would want us to get, that 
is we got Osama bin Laden tomorrow, and we are able to kill or 
capture him, would it fundamentally change the nature of the 
challenge or the threat that we are dealing with, or would that 
still exist?
    Mr. Gistaro. Sir, the community actually spent a lot of 
time talking about that exact point. Because it is in the 
classified section of the paper, I would prefer to go into 
detail on that in closed session if I could.
    Mr. Cole. Absolutely.
    Let me ask you this, then, and switch the focus and the 
time I have got left to al Qaeda in Iraq.
    And in your judgment, is our focus there a diversion or is 
it still an integral part of the ongoing struggle with al 
Qaeda? We are sort of chasing a lesser target there at a great 
deal of expense, great deal of resources. Or is the focus there 
still worthwhile?
    Secretary Clapper. Well, I believe it is clearly still 
worthwhile that that is the significant threat. It is a 
significant component of the larger global AQ threat. So 
absolutely.
    Mr. Cole. Given the fact, Mr. Secretary, you know clearly 
we have multiple struggles going on in Iraq. We have got civil 
strife, we have got tension between ethnic and sectarian 
groups. I mean, I don't mean to give you a challenge. Is it 
even possible to disentangle these threads?
    You know, we got a lot of policy pronouncement in 
Washington that we should just focus on al Qaeda in Iraq, and 
somehow everything that is happening domestically in terms of 
the government or the rivalries or the jockeying of power is 
sort of irrelevant.
    Do we have the luxury of that kind of clarity and that kind 
of isolation of the problem in an area as complex as Iraq?
    Secretary Clapper. Well, I think you have accurately 
characterized the complexity of the situation there. Certainly 
the al Qaeda threat is crucial. It is crucial that we continue 
our campaign against it. But that is against the backdrop of 
all of the other complexities and the dynamics in Iraq.
    And I am not sure it is possible to cleanly disaggregate 
those various components of the complexity, as you correctly 
allude.
    Ms. Long. Congressman, if I could augment that answer. 
Excuse the augmentation.
    One of the things we are learning about al Qaeda is that 
they play upon the societal divisions that preexist, whether it 
is tribal, Shi'a, Sunni or otherwise. And by exacerbating those 
tribal and other divisions, they actually play into the 
criminal and other elements of what is going on in complex 
societies like Iraq and in the FATA.
    So your point is exactly right, sir. To disaggregate what 
actually al Qaeda is focusing on, which is to force those 
divisions in society to be a conflict against not only those 
people but our brave men and women in the Coalition force is 
very, very difficult.
    Mr. Cole. I know I don't have much time. But, again, we 
sort of do a lot of historic revisionism, but there is clearly 
very adaptable multifaceted--well, thank you, Mr. Chairman. I 
will hold that for another time.
    Mr. Reyes. Ms. Davis.
    Mrs. Davis of California. Thank you all for being here.
    When you were asked about what has changed, I think one of 
the things that you cited was the change in the Waziristan 
agreement. And yet there has been some, I guess, points of view 
that would suggest that it is not really just there in the FATA 
regions that al Qaeda has been reconstituted, but in fact it is 
across Pakistan, and that there are more problems than just 
looking at FATA regions.
    Would you agree with that and, if so, what do you believe 
is the situation there as you get it in a broader context?
    Mr. Leiter. I think we are talking about al Qaeda core 
senior leadership. I actually would--the vast majority of what 
we are talking about is in North Waziristan. So I would not say 
it is a Pakistan-wide problem.
    Mrs. Davis of California. Anybody disagree with that?
    Okay. I know that there have been several articles that 
would suggest that--that is great, and I wanted to give you a 
chance to clarify that. Thank you.
    One of the other issues that we focused on is that the 
changes that have occurred in the al Anbar area and the fact 
that both Sunni and Shi'a tribal leaders have come together in 
many ways to fight al Qaeda. There is a downside to that, as we 
know.
    And I wonder in terms of the intelligence that you are 
receiving, if you believe that we ought to be looking at that 
downside, or that this is just a risk that we need to take in 
terms of the strengthening in many ways of those tribal 
communities and the tribal leaders as they fight al Qaeda.
    I guess the follow-up question to that is if, in fact, we 
are seeing that shift and that is true, is then al Qaeda in 
Iraq being seen quite differently by at least that area of the 
country and do--are they that much less a threat?
    Ms. Long. Ma'am, I can address that from a non-intelligence 
standpoint.
    I am not sure what you are referring to when you say the 
flip side. I think you may be referring to the public 
discussion about arming the tribes or militia in al Anbar. And, 
you know, from the statements of the Secretary, these were the 
folks who were well armed to begin with. But it is very 
important and you are exactly right that what has happened 
there is a shift in attitude. And I believe it was Congressman 
Hoekstra that pointed out that the important point of the 
forcefulness behind the theory and the ideology of al Qaeda is 
the attitude.
    So when we take a look at the tribes, whether they are in 
al Anbar, in other places where they made the fundamental 
commitment to enforce the government, to reinforce the 
government of Iraq and to counter what they consider are a 
foreign and hostile threat, and that is al Qaeda in Iraq, that 
is a good thing. And what we are trying to do is encourage that 
by empowering them, by guiding them, and by institutionalizing 
that effort.
    Mrs. Davis of California. Are you saying from the point of 
view of intelligence, then, there is really no downside to 
that?
    Ms. Long. I can't speak to the intelligence fact. I was 
referring my colleagues to that point.
    Mrs. Davis of California. I just wanted to have a chance, 
because certainly some military leaders would suggest that it 
is a very cautionary way to proceed and we certainly need to do 
that.
    May I just turn really quickly. I am trying to get a sense 
in terms of priorities and certainly in terms of the Department 
and where you have put your resources. Obviously they are 
limited.
    Would you say that--has there been a shift in resources 
from the last NIE report than the report today, or the 2007 
report? Does that NIE make a difference in terms of the way you 
would utilize resources? And certainly individuals who were 
focusing on whether it is al Qaeda, al Qaeda in Iraq, whether 
it is Pakistan, the FATA region; have you shifted your 
resources at all?
    Secretary Clapper. I think in general terms, the NIEs have 
simply served to reinforce the course that the Department has 
been on. It has undertaken a lot of actions in response to this 
shift and to focus on terrorism.
    So changes in the unified command plan, the expansion of 
our Special Operations capabilities, to name a couple of 
specific examples. I think the NIEs have simply, despite 
perhaps the somewhat different approach, different purposes, 
but I think the underlying fundamental themes have served to 
reinforce the direction the Department is taking.
    At the same time, though, we have other issues that we 
must--the Department has to wrestle with in terms of nation 
states, potential nation states, peer competitors, et cetera, 
apart from the war on terrorism.
    Mrs. Davis of California. Thank you.
    The Chairman. I thank the gentlelady very much.
    Mr. Mike Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank each of you for your efforts to answer our 
questions today and for your service.
    This document is obviously a very important one, and that 
is, as you hear the questions of the members as we look to 
issues of policy and of actions, it is something that will 
guide us to a great extent.
    It saddens me, though, that so many times the National 
Intelligence Estimate is used for political purposes. Last time 
when the National Intelligence Estimate came out, there was a 
great amount of political hay that was made over al Qaeda's 
reaction to our presence in Iraq. And I heard some of that 
today as we went down the questions about al Qaeda.
    And it just strikes me, because there is some of this that 
just seems obvious.
    And so I have a few questions for you that really have been 
troubling me since we began the discussion on the last National 
Intelligence Estimate as people have tried to take it and put 
it forward to the American people for, I think, political 
purposes that don't help our discussion.
    Are there any of you that believe, or did you have any 
intelligence information that would have indicated that al 
Qaeda would have liked us more by our entering Iraq, or that 
they would have been supportive of us entering Iraq? Does 
anyone have any information that al Qaeda would have liked and 
been supportive of us going into Iraq?
    I suspect the answer is no. And the reason why I suspect 
the answer is no is because whenever I hear someone make big 
hay over al Qaeda is upset that we are in Iraq, I think that 
should win a blooming obvious award, because we can't imagine 
they would have thought anything else.
    Now, I wasn't here when we voted to go here in Iraq. So I 
am not one of those who is here to try to make the point of 
what we knew and didn't know. But it just troubles me when 
people try to make the point that Iraq is--about Iraq's--about 
al Qaeda's reaction to our presence in Iraq, when it seems to 
me it was pretty obvious what their reaction was going to be.
    Looking to post-9/11, are there any of you that believed or 
did you have any information that would have indicated that 
after we were attacked on 9/11, that al Qaeda was done, that 
they were satisfied with their attack on our country and that 
on 9/12, al Qaeda posed no risk to our country?
    Anyone?
    No. I suspected the answer was no.
    So today it would be back to the blooming obvious award 
that al Qaeda would not have changed its intent.
    Now, what is not obvious and what I think was so important 
about Ellen Tauscher's discussion is it is not obvious that the 
capabilities, the timing in which they have capabilities that 
are waning, or the times that their capabilities are 
escalating, and I look forward to our classified discussion as 
we learn more of that.
    The other question I have for you is, is there anyplace in 
the Middle East where the United States has troops where al 
Qaeda is not present? You don't have to tell me where. But is 
it--is it a yes or a no? Is there a place where we have troops 
in the Middle East where al Qaeda has no presence?
    I would suspect the answer is no.
    Mr. Leiter. We could probably give you very limited 
examples, but yes.
    Mr. Turner. Very limited. I appreciate you saying it.
    It also seems to me that it is pretty obvious that there is 
no one who would have suspected that our going into Iraq would 
not have resulted in al Qaeda following us.
    Something else that is not a surprise.
    Well, turning to another portion of your report that we 
have not discussed, you are talking about Lebanese Hezbollah, 
and you go on to say that they might pose a threat for 
attacking the homeland if it perceives the United States as 
posing a direct threat to the group or to Iran. Obviously they 
have been--we have seen significant military action that has 
occurred in that area.
    Can you please describe further what your thoughts are 
there with respect to their views of the United States as a 
threat and then their threat to us?
    Mr. Gistaro. Sir, this was one of the parts of the key 
judgments that we scrubbed pretty hard from a security 
standpoint, and I would much prefer to discuss it in closed 
session.
    Mr. Turner. Thank you. I will wait for my questions there.
    Thank you, Mr. Chairman.
    The Chairman. I am going to call on Mr. Murphy right now. 
And after he asks his questions, we are going to have a 10-
minute recess.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. And thank you Mr. 
Secretary, distinguished witnesses for your testimony today.
    Are you telling us that in the entire unclassified NIE, 
that the name Osama bin Laden is never mentioned? And this fits 
a pattern where even the President said about bin Laden, and I 
quote, ``I truly am not that concerned about him,'' unquote.
    The folks in the Eighth Congressional District of 
Pennsylvania are concerned about him and about bringing him to 
justice because he is the one who is responsible for the murder 
of 3,000 innocent Americans.
    So will you please explain to me why, and I quote, ``the 
most authoritative written judgments on national security,'' 
end quote, does not include our efforts to capture and kill 
Osama bin Laden?
    Mr. Gistaro. Sir, what we were trying to assess in the 
estimate was the intent and capabilities of al Qaeda and other 
terrorist groups against the United States.
    Bin Laden's influence on that is discussed pretty 
thoroughly in the paper. It was not to assess in broad terms 
U.S. counterterrorism policy.
    Mr. Murphy. Sir, in the whole NIE it is not--his name is 
not mentioned at all in the NIE. He is still the leader of al 
Qaeda.
    Mr. Gistaro. No, sir. He is discussed quite a bit in the 
body of the paper.
    Mr. Murphy. Well, I have asked this line of questioning in 
the past. I think it is important also getting to the bottom of 
it.
    The past 5 years, the aid, the $5.6 billion aid to Pakistan 
to combat terrorism, it is about $80 million dollars a month 
with no strings attached. No questions asked, no 
accountability. And I believe it is quite disturbing that the 
NIE states that al Qaeda has found a safe haven in the 
Pakistani tribal region.
    When I was in Pakistan and Afghanistan a few months ago, 
they expressed a willingness to help out on the border region 
and also the border of Afghanistan, and asked for the Afghan 
Army to assist in their efforts. And currently the House of 
Representatives and the Senate are working out compromises to 
our bill implementing the 9/11 Commission recommendations.
    One provision that is being negotiated and I believe 
incorporated into the final bill, is a section on Pakistan that 
would limit aid to Pakistan unless the President issues a 
determination that Pakistan is making all possible efforts to 
prevent the Taliban from operating in areas under its sovereign 
control, including the FATA, the Federal Administered Tribal 
Areas.
    The Administration has proposed even this minimal effort to 
promote accountability, stating it would be counterproductive 
to fostering a closer relationship with Pakistan.
    In light of the troubling findings of the NIE over 
Pakistan's failure to fight terrorism, does this 
Administration, in particular does DOD and NCTC oppose efforts, 
such as those in the 9/11 bill, which demand accountability, 
including specific benchmarks with respect to Pakistan's effort 
in rooting out terrorism?
    Ms. Long. I would like to go ahead and answer that on 
behalf of the Department of Defense.
    I would take some difference of perspective of your 
statement regarding that no one holds Pakistan accountable. And 
as a matter of fact, there are extensive exchanges between the 
Department and the Pakistani government to account for and to 
follow through on how the aid that we provide them is utilized.
    For example, I believe it was Congressman Smith talked 
about the policy implications and the policy lines of our 
assistance to Pakistan. And those extend to development of the 
military, as you are well aware, with the Frontier Corps, and 
it also extends to non-kinetic measures such as economic and 
other developmental efforts in order to bring stability from a 
political economic standpoint to the FATA.
    So I do believe that the Department in particular, and 
while State Department is not here, does account for and does 
follow very closely the utilization of the aid that is provided 
to Pakistan.
    Mr. Murphy. But the reality of on the ground is we knew 
this intelligence before the NIE came out. We have known for at 
least since I have been in Congress, for seven months, the fact 
that we knew this was--this region of the world was a safe 
haven for al Qaeda. And we continue to give $80 million dollars 
a month to the tune of $5.6 billion to President Musharraf who 
has called off his military, the Pakistani Army, and basically 
outsourced this tribal area and allowed al Qaeda and the 
Taliban to grow stronger and stronger.
    Ms. Long. Once again, sir, I would disagree with you. To 
date, approximately 700 Pakistani security services have died 
in support of the effort to stabilize the FATA and other 
regions. And I believe as of today, some 100,000 Pakistani 
security forces are in that region contributing to the global 
war on terror.
    Mr. Murphy. Ms. Long, is it your testimony today that 
President Musharraf has not called off the Pakistani Army in 
that section, the FATA section, in the past?
    Ms. Long. It is my testimony today that it is my 
understanding that there is Pakistani military and other 
security forces present in the FATA, yes, sir.
    The Chairman. Thank the gentleman.
    We will now have a 10-minute recess, and Dr. Gingrey, you 
will be the next member called upon.
    Ms. Eshoo. Could I ask a courtesy of you to maybe announce 
the order of members that are still to be called on?
    The Chairman. Thank you. We can do that.
    I have Dr. Gingrey, Mr. Loebsack, Mr. Wilson--Ms. Wilson, 
excuse me. Mr. Holt, Mr. Franks, Mr. Sestak, Mr. Issa. That is 
as far down as I can go as of this moment, if that helps any.
    Ten-minute recess.
    [Recess.]
    The Chairman. We are back in session. The gentleman from 
Georgia, Mr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you very much.
    The Chairman. Go right ahead, Doctor.
    Dr. Gingrey. Mr. Chairman, thank you, and I want to thank 
the witnesses for sharing their time with us this afternoon. It 
has been a great hearing.
    My colleague from Ohio asked the question a little while 
ago, and he talked about the blooming obvious award to some of 
his rhetorical questions. And I thought I would offer a couple 
or few rhetorical questions as well, and I think the answer, at 
least from my perspective, is blooming obvious, but I would 
welcome the witnesses to actually answer the questions if they 
felt qualified to do so.
    And this is the first question, when a well qualified team 
of cancer specialists--now, remember, I am an OB/GYN physician 
so I am coming at this analogy obviously from the medical 
perspective--but when a well qualified team of cancer 
specialists agree on a plan of therapy for a patient's cure, 
and this plan is based on all available medical information at 
the time of initial treatment, and they apply that therapy 
consistent with the known standards of care at that point in 
time, yet the cancer comes back, is that medical team guilty of 
malpractice?
    Now the other question then is, if the answer is no, if 
this same team, knowing that the successful treatment of this 
recurrent disease, now the cancer has come back, it is going to 
be much more difficult, much more difficult as we all know, so 
they decide to withdraw their care from the patient and move on 
to some other battle that they are more likely to be successful 
in, would you then say that they are guilty of malpractice or 
even abandonment of the patient? I think that blooming obvious 
answer to this rhetorical question is yes.
    We have all heard the old adage, and I am old enough to 
remember when people would say, oh, goodness, you have got a 
cancer, but don't let them cut on it, don't let that doctor cut 
on it, because it will spread it.
    And what I am getting at, we are talking about, we have 
been here a long time today, we are really taking this National 
Intelligence Estimate in regard to al Qaeda and the fact that 
we went after the cancer with the best knowledge that we had, 
the best of our ability at the time, and the cancer, al Qaeda, 
according to the National Intelligence Estimate, has come back. 
It has come back with a vengeance. It is going to be tougher, 
and it is tougher to wipe them out because this spread a little 
bit.
    Do you gentlemen think that we should give up in a 
situation like this, or should we continue to fight the cancer, 
because there is still a chance for a cure?
    Secretary Clapper. Well, I am not a medical doctor, sir, 
but I think your analogy, and even though the questions and 
statements are rhetorical, I think they are correct.
    The answer to your first rhetorical question is, of course, 
no. At least I don't think it subscribes to the common 
understanding of what medical malpractice would be.
    I think what we have here is somewhat of just a chronic 
condition that is going to be with us for a long time, and we 
have to, I think, resolve that this is a long running 
condition. And hopefully we will find a cure for it some day, 
as we will hopefully find a cure for cancer. In the meantime, 
we have to attack it using a variety of means and methods, as 
we are, and we have to take it on wherever it occurs and 
wherever we can get to it.
    Dr. Gingrey. Still got a little time for other answers.
    Mr. Verga. Sir, I would obviously agree with you and the 
only other additional comment that I would make is, while al 
Qaeda is a very resilient organization, they have in fact 
reconstituted themselves. I have a hard time imagining how much 
worse it would be had we not undertaken the actions we have 
undertaken since September 11th, and I have a vivid 
imagination.
    Dr. Gingrey. I will say this, in regard to that comment 
about, oh, don't let the doctors cut on that cancer, I can 
assure you, and I am not a cancer specialist either, but if you 
just look at it and hope that it will go away and that you 
don't disturb the hornets' nest and think they will like us, it 
will surely kill you.
    I yield back, Mr. Chairman.
    The Chairman. Thank the gentleman from Georgia.
    Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and thank the witnesses.
    I would like to follow on some of the questioning of Mr. 
Thompson and Ms. Tauscher about the difference, and that you 
have heard from others today, about the difference between the 
NIEs where in 2006 it talked about seriously disrupting the 
leadership of al Qaeda and now saying that it has reconstituted 
and is as great a threat as ever.
    You took a couple of--made a couple of efforts at trying to 
explain some of the differences. At one point, you said, well, 
we took away the safe haven in Afghanistan. But that, of 
course, had happened long before the 2006 NIE. So that can't be 
the explanation of what has changed. Then you said, well, the 
policy of Pakistan and the tribal areas has changed. And that 
certainly is true.
    So let me just ask you to say it outright, are you or are 
you not saying that the Pakistani policy, Musharraf 's policy 
in the tribal area has changed in a way that has led to either 
tolerating al Qaeda or aiding directly or indirectly al Qaeda? 
Are you saying that?
    Mr. Leiter. Congressman, the North Waziristan Peace 
Agreement contributed to al Qaeda developing over the past year 
a safe haven. It made them more secure. If I can add one thing 
though, you noted that taking away Afghanistan in 2001 couldn't 
have any effect. My point was that this has not been a constant 
evolution. That taking away the safe haven for al Qaeda in 
Afghanistan in 2001 did for a period disrupt its ability to 
plan and plot. Their movement to the urban areas gave them 
opportunity to regenerate. Attacking them there allowed them to 
move and so on and so on.
    Mr. Holt. Well, I think that there is an important policy 
implication of what you have just said about the change in 
Pakistan. Let me go to another question; what sort of control 
does al Qaeda, al Qaeda in Pakistan or wherever the leadership 
is, have over al Qaeda in Iraq for tactics and operational 
planning. What sort of control do they have?
    Mr. Gistaro. Sir, I think the President laid it out pretty 
clearly yesterday.
    Mr. Holt. I am asking you. You have studied this, and he is 
getting his information from you, I hope.
    Mr. Gistaro. Yes, sir. I think what the President said was, 
we do not see al Qaeda in South Asia exercising tactical 
control over AQI. That they have deferred to AQI.
    Mr. Holt. Now you also said in answer, Mr. Gistaro, in 
answer to Mr. Thompson's question, that al Qaeda was not in 
Iraq at the time that the U.S. went in. When did they go in? 
When did they appear if it was after we entered?
    Mr. Gistaro. Sir, I think we--the Intelligence Community 
looks at the 2004 swearing of bayat on the part of Zarqawi to 
al Qaeda as the point where we started to talk about al Qaeda 
in Iraq.
    Mr. Holt. Why? Why did they go in?
    Mr. Gistaro. Sir, I think, and I defer to others on the 
panel, there was a terrorist presence in Iraq. It decided in 
2004 to align itself formally with al Qaeda.
    Ms. Long. Congressman Holt, if I actually might clarify 
just two points. You asked a moment ago about the policy 
implications of the North Waziristan Agreement. It was unclear 
from where the conversation left off, that agreement is no 
longer in effect, sir, and in fact has been abandoned. The 
Pakistani government made the policy decision to return the 
army, which had maneuvered itself away from some of the centers 
to garrisons and along the border. They have returned 
significant forces to Northern Waziristan as well as realigned 
the forces within Northern Waziristan.
    So I didn't want to let that go with a misinterpretation 
that the agreement was still in effect and, therefore, that we 
had not and the Pakistanis had not made the appropriate policy 
adjustments.
    Mr. Holt. Let me just wrap up by saying, you have published 
an unclassified version of this so clearly you mean it for 
public consumption. It is leaving the public very confused. We 
have gone from the President saying in 2003 that the nearly 
one-half of al Qaeda senior operatives have been captured; and 
then, a few months later, that nearly two-thirds have been 
captured and killed; and a year later, maybe three-quarters 
have been killed. We have gone from orange to yellow to red 
warnings, and now we have conflicting NIEs barely a year apart. 
It is leaving Americans very confused about what we really know 
and whether what we are stating are facts or political 
assertions.
    Ms. Long. Mr. Chairman, I would like to go ahead and answer 
that question.
    The Chairman. Please.
    Ms. Long. Sir, it is a confusing situation in part because 
it is a complex situation and the nature of counterinsurgency 
of terrorism, and particularly this target, is a very dynamic 
target. And it has adapted and changed to our tactics and 
procedures, and continues to do so. You are exactly right in 
that we owe it to the U.S. public not to boil this down to 
sound bites and to ensure that they understand the complexity 
and the difficulty of this terrorist target, sir.
    The Chairman. Thank you very much. Let's go back. We went 
into Iraq in March 2003; am I correct? The answer is, yes. At 
what point did we realize there was an insurgency? Anybody?
    Secretary Clapper. I think soon after the end of active 
hostilities.
    The Chairman. That would have been around May 1st, 2003, am 
I correct?
    Secretary Clapper. I think we began to see early when-- I 
was the director of NGA at the time, and I think we began to 
see early signs that there was a coherent national thing, but 
there were certainly the earmarks of an insurgency.
    The Chairman. Was this basically the Baathists of 
yesteryear of the Saddam Hussein Sunni group?
    Secretary Clapper. I think it was a combination of 
interests using terrorist tactics, Sunnis versus Shi'as; 
disaffected Baathists, yes. Then, as things evolved, we began 
to see the association with AQI or al Qaeda moving in and 
exploiting the situation and galvanizing the terrorist movement 
in Iraq.
    The Chairman. When did the al Qaeda or foreign fighters, if 
they are the same thing, move in and begin assisting the 
insurgency?
    Mr. Gistaro. Sir, if you do go back, Zarqawi was already in 
Iraq even before we invaded. I think he had started to 
establish those networks to bring foreign fighters into Iraq, 
primarily to be the suicide bombers that he started using with 
increasing frequency in 2004 and 2005.
    The Chairman. When was that?
    Mr. Gistaro. Sir?
    The Chairman. When was that? When was there a presence of 
al Qaeda assisting or working with the Sunni insurgency? And 
using May 1st as a focal point, from that point.
    Mr. Gistaro. Sir, we began to use the term al Qaeda in Iraq 
in 2004 after Zarqawi pledged his bayat.
    The Chairman. So that would be the following year.
    Mr. Gistaro. Yes, sir.
    The Chairman. Not until then.
    Mr. Gistaro. We were certainly aware of Zarqawi and what he 
was doing.
    The Chairman. When were you aware of Zarqawi and what he 
was doing?
    Mr. Gistaro. We saw evidence he was in Iraq even as early 
as I believe 2002.
    The Chairman. When did he begin his activities?
    Mr. Gistaro. Sir, I think this is something I need to take 
as a question for the record to make sure I can give you an 
accurate answer.
    The Chairman. I am getting a little fuzzy there.
    Mr. Tierney. Will the chairman yield. The fact of the 
matter is Zarqawi was in Iraq, but he was there as an insurgent 
independent; that he didn't even have a good relationship with 
Osama bin Laden; in fact, Osama bin Laden rejected his 
overtures until it was convenient for al Qaeda to take credit 
for the kind of insurgency going on in Iraq. And at that point, 
they finally accepted the overtures of Zarqawi. And all of the 
insurgency activity he was involved in, on an entirely 
different basis, became associated with al Qaeda, and that is 
how the situation evolved.
    The Chairman. Let's proceed.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman. Thank all of you for 
being here. Sometimes it is easy for those of us that have the 
opportunity to kind of second guess you to forget that you are 
the invisible front line of freedom in this country, and we 
appreciate you very much. I know you have a difficult job.
    I was struck by the comments of both Mr. Gingrey and Mr. 
Turner about some of the obvious questions. And part of the 
problem is that sometimes in this body, self-evident truths 
have become less self-evident. And it seems like truth 
sometimes gets disinvited from the debate. So if you grant me 
diplomatic immunity, let me just try to do a little bit of the 
same thing they did.
    Ms. Long, when you mentioned that al Qaeda was very adept 
at being able to not only assess but to understand the 
political dynamics in a given area and to exploit those in ways 
that are pretty insidious, do you not think that they also are 
able to assess our own political dynamics here and exploit them 
to a great degree as well?
    Ms. Long. Absolutely. In fact, I believe that there is 
intelligence as well as anecdotal information that they watch 
our political dynamic as well as our dialogue very carefully in 
order to gauge our weaknesses as well as our strengths.
    Mr. Franks. I think it is probably one of the greatest 
challenges that we have here, is that al Qaeda is an 
insidiously intelligent and dangerous group that has profound 
commitment to their ultimate end, and our challenge sometimes 
is to diminish their capacity.
    With that in mind, let me ask you again, Ms. Long, do you 
think that al Qaeda feels emboldened and strengthened--and this 
is a terribly unfair question to you; it is a political 
question, but it also has a pretty straightforward answer, 
probably--do you think al Qaeda is emboldened or encouraged by 
calls in this body for us to withdraw from Iraq?
    Ms. Long. I think debate about what we do in Iraq and the 
manner in which we do it is very important, and I think public 
dialogue and discussion about that is critical to our 
democracy, and I think that, to the extent that individuals see 
that both internally and externally, they know this is a 
fundamental principle of America, that we have dialog.
    I do think we need to be careful that we don't 
inadvertently either dissuade our allies from being aware, and 
knowing our commitment, as well as emboldening our enemies.
    Mr. Franks. If they had a vote, Mr. Verga, do you think 
that al Qaeda would vote for us to withdraw or to stay and 
fight?
    Mr. Verga. I think they would like us to withdraw.
    Mr. Franks. Think they would like for us to withdraw. Let 
me ask you, Mr. Verga, let me not characterize, what do you 
think the reason is that we see this drawing into Iraq of al 
Qaeda? Why are they coming into Iraq to fight us?
    Mr. Verga. One, because we are there. We are fighting them 
there because they are there. And they see it as an opportunity 
to hand us a defeat which would help them get to their end, 
which is ultimately an Islamic Caliphate that spans the world.
    Mr. Franks. Osama bin Laden said not so long ago said, this 
battle of two rivers, Iraq, is the critical battle. He said 
that this is the important thing. So if Iraq is not important 
to Osama bin Laden, if it is not important in the battle 
against al Qaeda, if it is not important in the battle against 
Islamic terrorism, if it is not important in the battle against 
jihad, then somebody needs to explain that to al Qaeda, because 
they don't understand.
    Let me ask you, Mr. Verga, what do you think happens if we 
withdraw too soon from Iraq before that government can stand? 
What happens there? What does al Qaeda do, and what advantage 
do they gain by that happening?
    Mr. Verga. I think the biggest negative would be to 
establish a Taliban-type state that we had in Afghanistan prior 
to going into Afghanistan in a country which has much more 
indigenous capability. Iraq is a much more advanced country 
than Afghanistan was. And if you have an Islamic state bent on 
exporting Islamic fundamentalism around the world, they would 
have an operating base. I think the implications for the region 
and the implications for the safety and security of America 
would be profound.
    That is my best professional judgment, that leaving Iraq 
precipitously without setting the conditions for the Iraqi 
people to be able to have a stable country is not in the best 
interest of the United States.
    Mr. Franks. I suppose it doesn't shock you to know that I 
agree with you completely on that.
    Mr. Gistaro, I think you mentioned earlier that the 
assessment is that the potential capacity to attack the United 
States comes more from al Qaeda in Asia than it does in Iraq, 
but Iraq has probably the clearest open statement that they 
want to attack the United States.
    So I ask this question, it is a little bit fuzzy, but is it 
possible that the reason that we deem the al Qaeda capacity in 
Iraq to be less than that of al Qaeda in Asia is because they 
don't have the safe haven in Iraq because our people are there 
and are engaging them? Does that have anything to do with 
diminishing their capacity?
    Mr. Gistaro. Yes, sir. The Intelligence Community assesses 
that AQI, the bulk of its resources are focused on the conflict 
inside of Iraq at this time.
    Mr. Franks. I guess, I am about out of time here, but I 
want to thank all of you again. I hope that you stay with it. I 
think this is the most dangerous enemy that we have faced in 
terms of the ideological commitment that they have and that, 
unlike some of the dynamics of the past, it is no longer an 
equation of what is their intent, how can we diminish that; it 
is the equation of, how do we prevent them the capacity to do 
this country great damage, and how do we gain the confidence 
and the cooperation of the Iraqi people? I would submit to you 
that I believe that the rhetoric in this institution can have 
two negative consequences: It can embolden the enemy and can 
reduce the commitment on the part of our allies to cooperate. 
Thank you.
    The Chairman. Before I call on Mr. Sestak, it is my 
understanding that Mr. Leiter must leave at this moment and 
someone will take his place. Am I correct?
    Mr. Leiter. I do, Mr. Chairman. I thank you for the 
opportunity to speak with you. Taking my place, and I apologize 
for having to leave early, will be the NCTC's director of 
intelligence, Andy Liepman.
    The Chairman. The name again?
    Mr. Leiter. Andy Liepman.
    The Chairman. Thank you.
    Mr. Leiter. Again, thank you for your time, Mr. Chairman.
    The Chairman. Thank you, Mr. Leiter.
    Thank you so much.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    The largest phrase I will walk out of here with you is 
yours, Mr. Gistaro, a safe haven, Pakistan. I can remember, I 
guess during the war when we went into Afghanistan, General 
Hayden, head of the NSA at that time, said to General Franks--
excuse me, Franks said to Hayden, give me some actionable 
intelligence. And Hayden replied, give me some action, Franks, 
and I will give you some intelligence.
    We have a safe haven, so there is no action. They just sit 
there, so we can't get intelligence, if Hayden's comment was 
correct.
    You said, General, that we want to use--we want to attack 
it by every means, by a variety of means. Actually who probably 
should be sitting here at this table is the State Department. 
But you are the closest to it, Ms. Long, and then you, General.
    How do you get action so you can get intelligence in what 
you described as a safe haven that the might of America can't 
get the intelligence in a certain place in the world? This is 
for you, Ms. Long, or General, either one.
    Ms. Long. I think there are a variety of ways of getting 
action. We have talked a lot today about the kinetic aspects, 
and I think what you are alluding to is, as a result of kinetic 
activity, you can get prisoners or detainees or you can learn--
--
    Mr. Sestak. Much more than that. To the General's point, 
there is a lot of means to get action.
    Ms. Long. I was starting there, and I was about to say that 
actually I think one of the things we have learned, in al Anbar 
for example, is it is the non-kinetic means is sometimes more 
productive as an intelligence producer, and that is persuading 
folks----
    Mr. Sestak. How do we do that to Pakistan? What is the 
action you recommend?
    Ms. Long. We have a three-pronged effort that I think is 
effective. And that is economic development so that the people 
of the FATA and Northern Waziristan in particular see their 
world changing so that they can affiliate themselves----
    Mr. Sestak. Will that take time?
    Ms. Long. Time.
    Mr. Sestak. In the near term, because he is just sitting 
there.
    Ms. Long. One of the other things that we are doing near 
term and actually as we speak is we are developing the 
capabilities of the Pakistani army as well as frontier forces.
    Mr. Sestak. But he has a treaty.
    Ms. Long. That treaty is no longer in effect. And as a 
matter of fact----
    Mr. Sestak. Why did we wait? If the treaty was giving him 
safe haven, why didn't we ask them to break it earlier?
    Ms. Long. I think there is a misperception that we were 
standing by as this treaty was in effect. That is incorrect. In 
fact, our military and other efforts to not only provide 
military and other support as well as economic development to 
Pakistan were ongoing during the treaty, sir.
    Mr. Sestak. General, any recommendations?
    Secretary Clapper. As I said earlier, I just think we need 
to continue on all fronts, whether it is assistance to the 
Pakistanis. I think Ms. Long makes a very good point about it 
is not just the kinetic.
    Mr. Sestak. Would you change anything we are doing now to 
try to get more action, or some action?
    Secretary Clapper. I think we need to continue what we are 
already doing.
    Mr. Sestak. It hasn't produced anything in Pakistan.
    Secretary Clapper. Well, I don't think that is necessarily 
the case. I think it is producing something. I think the treaty 
with the tribes in Waziristan was a good thing to try. It was 
done in good faith. It didn't work out, and now it has ended, 
so we try another approach. I think that is characteristic of 
what needs to be done here, is to call on all forces, kinetic 
and non-kinetic.
    Mr. Sestak. General, can I follow up? You said attack by a 
variety of means. When General Eikenberry left Afghanistan, he 
was asked, does Iran work toward our interest in Afghanistan 
for stability? His answer was yes at that time, not because 
they love us, but because they didn't like al Qaeda and 
Taliban, and put money into building roads. The National 
Intelligence Council (NIC) had said that we would spiral into 
chaos in Iraq if we redeploy precipitously in 18 months.
    When asked, Dr. Fingar, did that include the influence if 
it was to be one of the means by which we want to get stability 
in Iraq to negotiate with him, to work with him to see if they 
can have an impact, would that change your answer of spiraling 
into chaos, since they don't, he said, want a failed 
government, would that have changed your answer? He said 
probably.
    In attacking by variety of means these insurgents and all, 
would working, in your intelligence estimate, with Iran help 
address this problem in Iraq?
    Secretary Clapper. Well, in the first instance, I think any 
Iranian element that poses a direct threat to U.S. Forces in 
Iraq certainly has been and will be dealt with. Beyond that, 
the limited dialogue that Ambassador Crocker has had with the 
Iranians to implore them to reduce, eliminate their engagement, 
their support for the insurgents in Iraq is the right thing to 
do.
    Mr. Sestak. I am out of time. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman, and thanks 
to all the witness for being here today. General Clapper, it is 
pretty common knowledge that in order to get to al Qaeda, we 
need to be able to surveil the al Qaeda network and their use 
of modern telecommunications. How is FISA's inability to 
provide you with the proper tool to effectively listen to the 
terrorist communications impacting your ability to protect the 
homeland?
    Secretary Clapper. Sir, I think it would be best if we left 
that for a closed session discussion.
    Mr. Gallegly. Would it be safe to say that it is clear that 
al Qaeda is using modern telecommunications?
    Secretary Clapper. Absolutely, they are.
    Mr. Gallegly. And it is important that in order to get 
through to al Qaeda, we really need to get to the core by 
getting through the network.
    Secretary Clapper. Yes, sir, that is correct. That is, as I 
am sure you appreciate, is why the interest in updating, 
modernizing the FISA legislation, not only to improve the 
efficiency of our attack against al Qaeda communications and 
use of the Internet, et cetera, but at the same time to ensure 
that civil liberty considerations are addressed as well.
    Mr. Gallegly. But without getting into the specifics and 
the overall effect on the homeland, the current status of FISA 
does have an impact on our ability to do our job.
    Secretary Clapper. It does. It is not as efficient and as 
responsive as it needs to be, and that is a factor occasioned 
by the huge change in technology that has occurred since the 
original FISA legislation was enacted.
    Mr. Gallegly. Kind of like between the Motorola cell phones 
of 20 years ago that look like a shoe box compared to these 
today that you can make a vanilla malt with.
    Secretary Clapper. Even more basic than that. We have gone 
from an era of putting alligator clips on telephone lines to 
the technology you just indicated.
    Mr. Gallegly. Thank you very much, General Clapper.
    The Chairman. Jan Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman, both chairmen, and 
I thank our witnesses today. In 2002, before the vote on the 
use of force, I said, am I the only one who sees that the 
emperor has no clothes? Well, now, many years later, most 
Americans now see that the emperor has no clothes. What we have 
been doing has simply not been working, in my view. Almost 6 
years now after 9/11, when al Qaeda did attack us, 3,400-plus 
American troops are dead; a thousand-plus contractors, who we 
don't even count, are dead; tens of thousands of Iraqis; nearly 
a half a trillion dollars borrowed; $12 billion a month; $12 
million an hour. And the level of threat from al Qaeda we are 
learning is high, perhaps as high as it ever was, and growing.
    I wanted to just read something from the Strategic Reset, 
which is from the Center for American Progress: The current 
Iraq strategy is exactly what al Qaeda wants. The United 
States, distracted and pinned down by Iraq's internal 
conflicts, trapped in a quagmire that has become the perfect 
rallying cry and recruitment tool for al Qaeda, United States 
has no good options given the strategic and tactical mistakes 
made on Iraq since 2002, but simply staying the course with an 
indefinite military presence is not advancing U.S. interests.
    So we heard the President say in May 2003, al Qaeda is on 
the run. That group of terrorists who attacked our country is 
slowly but surely being disseminated. Right now, half of the al 
Qaeda operatives are either jailed or dead. In either case, 
they are not a problem any more. Then we have talk about the 
2006 NIE, and then the latest where al Qaeda has protected or 
regenerated key elements of its homeland attack capability. 
This is six years later now.
    And so we know also that al Qaeda in Iraq, which we are 
talking about the threat from there, did not exist prior to the 
U.S. occupation, and in Pakistan, now, we have what I call an 
al Qaeda-free zone.
    Mr. Verga, you said you don't want the American people to 
get the wrong idea, but why wouldn't they? I am looking at a 
July 25th, 2007, article that says a secret military operation 
in early 2005 to capture senior members of al Qaeda in 
Pakistan's tribal areas was aborted after top Bush 
Administration officials decided it was too risky and could 
jeopardize relations with Pakistan according to intelligence 
and military officials.
    Why wouldn't they get the wrong idea about our seriousness 
about capturing Osama bin Laden? Let me make a few more points.
    The other thing I don't understand is why we haven't 
focused more on Saudi Arabia. Another article, July 15th, 2007, 
in the LA Times: Fighters from Saudi Arabia are thought to have 
carried out more suicide bombings than any other nationality. 
About 45 percent of all foreign militants targeting U.S. troops 
and Iraqi civilian and security forces are from Saudi Arabia; 
15 percent from Syria and Lebanon; 10 percent from North 
Africa, according to U.S. military official figures made 
available to the Times.
    So I wanted an answer about the threat, which I didn't see 
mentioned in the unclassified report, from Saudi Arabia. So 
those are two allies, Pakistan and Saudi Arabia.
    Finally, I wanted to ask your opinion then of what the 
latest revealed strategy of the significant American role in 
Iraq for the next two years, the joint campaign plan, could 
yield us in terms of getting Osama bin Laden and those people 
who really are trying to attack us, the bad guys that we know 
who have killed us?
    When I look at the articles about that two-year presence, 
what I see is about trying to stabilize Iraq, reduce the threat 
to Iraqis, but nothing about how we are really going to--seems 
to me we missed the boat. We took a turn from Afghanistan where 
we were fighting al Qaeda, and we went to a place that has only 
enabled al Qaeda to organize to use our Iraq occupation as a 
gathering point.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    Mr. Issa from California.
    Mr. Issa. Thank you, Mr. Chairman.
    Ms. Long, Secretary Long, as a key advisor to the Secretary 
of Defense this hearing is on Iraq, and I don't want to stray 
too far from it, but I feel I must. As al Qaeda builds its 
network of foreign fighter recruiting, and they clearly have 
done that and used Iraq as one of the central recruiting 
points, and of course, they continue to use Israel and the 
plight of the Palestinians as another key recruiting.
    But recently, near Tripoli, Lebanon, it was shown that a 
huge amount of foreign fighters came into a Palestinian camp 
and in fact, and I use the words of the prime minister, he 
calls them al Qaeda-like, does not want to call them al Qaeda, 
but they are clearly foreign fighters, clearly Sunnis, clearly 
were recruited to come in, commit crimes and kill Lebanese 
armed forces when they came to respond to a bank robbery.
    One, how do you respond to that event? And two, which is 
going to be more broadly for the panel, when we spend $12 
billion a month in Iraq, what is the excuse of having a key 
potential second front get only 20 Humvees when we promised 
them three quarters of a billion dollars a year earlier at the 
time of that attack?
    As a matter of fact, at the time of the attack, just as a 
little note, they only had 600 artillery rounds to put into the 
target because we hadn't kept any of our significant promises 
for resupply. I need to use about half my time on you and then 
go to General Clapper.
    Ms. Long. I can, actually, sir. You are referring to the 
Lebanese armed forces (LAF) activities against the Palestinian 
armed enclaves in Tripoli and northern Lebanon as well as some 
of the activities that the LAF has undertaken in southern 
Lebanon. The first point is, you are exactly correct that 
foreign fighters have moved into Lebanon, and as you know, and 
not the subject of this particular hearing, those have been in 
order to strengthen Hezbollah as well as the activity going on 
in the north that were contrary to the Siniora government. It 
is important for you to be aware that the Department of Defense 
as well as the Department of State have reinvigorated and 
augmented our support to the Siniora government as well as 
Lebanese armed forces.
    As you are aware, sir, it wasn't until quite recently 
chronologically that the Lebanese government, to the extent it 
was one, was Syrian-backed, and some would argue a Syrian 
puppet. Prior to that, you are exactly right, not a lot of 
resources went into the building of the armed forces.
    Mr. Issa. I appreciate your response, but I am going to 
make a quick comment back. This is the typical talk we get in 
these hearings and is nice to have a public hearing so we can 
make a public answer.
    It has been two years since the assassination of Hariri. 
The March 14th coalition swept in a new organization, clearly 
anti-Syrian, and the Syrians were driven out, and we pledged 
to, in fact, support that legitimate government. The President 
invited the prime minister and had him at the White House.
    What I was asking, and I am going to have to go on to 
General Clapper, but what I was asking is, why, when we spend 
$12 billion a month, when the amount of weapons going into Iraq 
and Afghanistan is so huge, we couldn't get more than 20 
Humvees in a damn year? That is the question. It answers 
itself. And I apologize, but your answer that it has been a 
short term, a year or two of a nation that had no military, 
whose 113s are lucky just to be diesel and not gas, who go back 
to when I was a lieutenant, and then to say, well, it wasn't 
enough time, is simply disingenuous.
    Additionally, and I know you don't like being called 
disingenuous, King Abdullah offered to ship and train from his 
excess stock of our equipment, and we said no, and his 
equipment still sits there.
    Ms. Long. That is inaccurate. I apologize for interrupting. 
We have gotten a lot more equipment into Lebanon than 20 
Humvees. I will brief you and your staff as to the amount of 
equipment.
    Mr. Issa. I would look forward to it because I will compare 
it with the list I received in Lebanon.
    [The information referred to can be found in the Appendix 
on page 109.]
    General Clapper, the followup question for you, it is 
interesting that you began your career as a lieutenant flying 
over Laos and Cambodia. That was at a time when they were not 
open antagonists to us; were they?
    Secretary Clapper. That is right, sir.
    Mr. Issa. They, in fact, simply were unable or unwilling to 
fight an enemy of ours, and they were being used in order to 
traffic in people who would kill Americans. And at that time, 
in the beginning of your career, we would not accept that 
foreign fighters and weapons and resupply came in through other 
sovereign nations; we would not accept their sovereignty if 
they were not able to maintain their sovereignty.
    So my question to you today, from a standpoint of Iraq, is, 
why is it we respect the sovereignty to the letter of Syria and 
Iran while clearly foreign fighters, munitions and others, 
either with or without the assistance of those countries, come 
into us; why is it that we do not have a next-generation of 
aircraft like the one you flew over Laos and Cambodia with eyes 
and ears and, yes, munitions, if necessary? That is as to Iraq, 
and obviously Pakistan would be exactly the same question.
    How do you answer why what was right when you were a 
lieutenant somehow is off limits as a Secretary?
    Secretary Clapper. Well, the conditions were not quite--the 
analogy is a little different. When I was flying the mission, 
EC-47 missions, which were a World War II aircraft with World 
War II engines at the time.
    Mr. Issa. You were eating K rations when you got home.
    Secretary Clapper. Of course, the target was specifically 
the North Vietnamese military formations that were moving 
through Laos, and the component of the Laotian government that 
was supportive acceeded to that. And of course, the conditions 
today I believe with Pakistan are just different.
    Mr. Issa. Mr. Chairman, thank you for your indulgence.
    The Chairman. Thank you very much.
    John Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Chairman, I am going to start by making a brief 
statement as opposed to questioning, then hope to move to 
questions. I just want to put enough on the record here to 
clarify. There has been some other statements made about the 
Foreign Intelligence Surveillance Act, and I think some of it 
may be construed as misleading by others. That act has been 
changed dozens of times since it was first enacted, and it was 
changed a number of times since 9/11. The President instituted 
his program without ever coming back to Congress and asking 
that any changes be made in order to take care of any 
imperfections he might have seen in it.
    We have had numerous hearings now, both open hearings and 
classified hearings in the Intelligence Committee and 
subcommittees. The Administration has barely been able to 
articulate any particular problems with it, but the ones we can 
gather are they may need some staffing of people, additional 
staffing of people to implement the act as it is written. The 
other is that the act already allows for foreign-to-foreign 
communications to be intercepted. This Administration, for 
reasons we probably can talk about in classified sessions, has 
chosen to say it wants a warrant nonetheless.
    We don't need to go to an extent that some people have 
proposed, which would open up all United States communications 
to indiscriminate interception, but I do want to state, Mr. 
Schiff and Mr. Flake, in a bipartisan manner, Ms. Harman and 
others have taken care of that issue in a piece of legislation 
that failed to get bipartisan support. Senator Feinstein 
introduced a similar fix in the Senate. I hope that people 
won't get caught up in this hyperventilation to think this 
Congress hasn't been acting on that. Rather than make it into a 
political issue, I am hoping we can get back to legislation 
that Mr. Schiff, Mr. Flake and Ms. Harman and others have filed 
so we can clear up that issue and stop playing politics.
    On another matter here, I think the NIE states clearly the 
importance of eliminating key al Qaeda leaders. It states 
specifically that the loss of key leaders, specifically, Osama 
bin Laden, Ayman Zawahiri, and al-Zarqawi, of course, is 
already gone, in rapid succession probably would cause the 
group to fracture into smaller groups. Although like-minded 
individuals would endeavor to carry on the mission, the loss of 
these key leaders would exacerbate strains and disagreements. 
We assess that the resulting splinter groups would at least for 
a time pose a less serious threat to the United States' 
interests than does al Qaeda originally.
    I suppose that was true back right after September 11, 
2001, and that is why we went into Afghanistan and why the 
entire Congress voted to go in. I also suspect, unfortunately, 
it was remaining to be true when this President diverted troops 
out of Afghanistan and into Iraq, which at that point in time 
did not have any al Qaeda people involved in that situation. 
And that is true today. It is still important to go after Osama 
bin Laden and Zawahiri and other leaders on that basis, but yet 
the President has disbanded a special intelligence group that 
was focused solely on that avenue and has continued to support 
the Musharraf regime in Pakistan, which some people would argue 
isn't doing enough in that FATA area, the tribal area to take 
care of Osama bin Laden and Zawahiri.
    Does anybody here think it is not important at this time to 
put some focus on trying to get Osama bin Laden and al-Zawahiri 
and deal with that situation? Is there anybody here arguing it 
is not important to go after them?
    Assuming, then, that before Mr. Musharraf made the deal 
with the tribal chiefs in the Waziristan area, we had unrest 
there, we had Taliban, we had people that were causing 
problems, that is why he said he made the pact, because he 
thought that was going to get their cooperation in moving those 
out, so it was a preexisting problem; it didn't happen because 
of the pact. Now the pact is in place, and we have some 
incidents that may have exacerbated the situation. The fact of 
the matter is that he is now by some reports trying to 
reinstitute those pacts.
    Ms. Long, you say that that is not the case. So are the 
reports that we are reading that this is still an effort on the 
part of the Musharraf government to reinstitute the pacts with 
the tribal leaders no longer accurate? You are uncertain, or 
can you adamantly state the United States government is working 
with Musharraf to be sure he doesn't reinstitute that policy?
    Ms. Long. Sir, what I actually stated was that the Northern 
Waziristan Agreement instituted last year arguably was violated 
by both sides and has been abandoned by both sides and that 
Musharraf has moved subsequent to that to not only reconfigure 
figure the Pakistani armed forces, particularly the army, but 
also put more in the area.
    Mr. Tierney. My time is running, but during the time when 
that obviously wasn't working, why did the United States fail 
to work with General Musharraf and convince him to do something 
other than to stand by and abide by that pact and watch that 
get worse?
    Ms. Long. Sir, we were not standing by. As a matter of 
fact, I myself traveled to Peshawar as well in order to 
dialogue with the Pakistanis on the meaning of that agreement. 
And in fact, that agreement, some would argue, was an attempt 
not only to deal with the al Qaeda presence there but also the 
Taliban.
    As you are aware, the Taliban and other extremists in that 
area are also a threat not only externally but internally to 
Pakistan. We did not stand by. During that time frame, we 
increased our aid to the Pakistani military, and we began 
serious dialogue and efforts to train the Pakistani frontier 
forces, which were the element that the Pak government at the 
time was looking to as the primary element to reinstitute 
stability to Northern Waziristan.
    It is true that President Musharraf and various elements of 
the Pakistani government are looking at a variety of means, 
including small agreements in villages and other places, in 
order to gain stability. Some would argue that the approach 
isn't too different from the approach we are taking in al Anbar 
in that they are looking to change tribal minds in order to 
gain them on the side of what the Pakistani military is trying 
to do, sir. So I can't categorically say there are no 
agreements being contemplated at this time. I actually would 
hope that the Musharraf government is looking at all means to 
stabilize the region.
    Mr. Reyes [presiding]. Thank you, Mr. Tierney.
    Mr. Ruppersberger.
    Mr. Ruppersberger. There has been a lot said today, a lot 
of questions. I hope I am not repetitive. I had to be at 
another hearing and on the floor. I want to focus, I guess, and 
I am not sure who on the panel could answer the question, about 
the issue of terrorism on our borders.
    I think, if you look at the history and where we are now, 
when we went into Iraq, there were really no terrorists in Iraq 
at that time. Al Qaeda, if they were, I think Saddam Hussein 
probably would have killed them. Now I think we can all say 
that with all the issues that are going on, that Iraq has been 
a training ground for al Qaeda and is very serious.
    The way I see the situation, and I have been there four 
times, is, you have Sunni-Shi'a, and is almost as if we are the 
security guards for the Iraqi government in Iraq right now. And 
then you have al Qaeda there throwing bombs and doing whatever 
needs to be done. I think clearly that the strategy has to 
change in Iraq, and there are different opinions on that.
    I heard the President on the radio this morning, and I 
think, unfortunately, he made the argument that we need to stay 
in Iraq because that is going to protect us from an attack on 
our shores. Well, al Qaeda is throughout the world right now. I 
think it is a very radical organization, and they recruit 
people throughout the world.
    I am very concerned about the threats in the United States. 
I believe that one of the reasons we haven't had an attack is 
that al Qaeda has been focused in a lot of areas, and they want 
a big attack in the United States, an attack that is possibly 
some type of nuclear attack. The only way we are going to stop 
that, I believe, is through good intelligence.
    My concern is, do we have the resources, from an 
international level, which is what CIA and NSA are doing, to 
get back to the United States, to our Federal, State and local? 
FBI, who is really in charge; I think the Joint Terrorism Task 
Force (JTTF) is probably the best resource we have to stop the 
terrorism. The FBI is attempting to set up their own 
intelligence, the national security branch. But I am very 
concerned they are not where they need to be yet. They have 
good leadership there, but they need a lot of resources, and 
what makes it work is Federal, State and local.
    My question is, right now, we know that when eventually we 
leave Iraq, hopefully sooner than later, that Sunni and Shi'a 
are going to still be having their issues, but al Qaeda that 
are trained might come over to our borders and threaten us. 
What are we doing to make sure that we are getting the 
resources, the intelligence to our Federal, State and local, 
that we are identifying the cells in the United States.
    I will say one other thing; then maybe you can answer the 
question. The only way we are going to ever deal with the issue 
of terrorism, we are not going to be able to fight our way out 
of it; we are going to have to get the Muslim community 
throughout the world and let them come out and say, God does 
not want you to kill, that there is a one percent or less of 
Islam that is basically hurting our religion, and we are going 
to have to rally; that is the way we are going to stop this 
terrorism down the road.
    Getting back to the United States, we have Muslim Sunnis 
here, very active in the communities, do a lot. But they have 
children who have been in a very insular society and yet have 
gone to public schools. I am sure they have an issue with what 
we do in this country.
    What are we doing to help get the intelligence to our FBI 
and our State and locals in the United States?
    Mr. Liepman. Congressman, NCTC was formed partly as a 
result of the 9/11 and WMD Commissions, and Congress passed the 
Intelligence Reform and Terrorism Prevention Act (IRTPA). One 
of the primary motivations in that was to improve the latch-up 
between our foreign intelligence operations at CIA and DIA and 
such, and our law enforcement, FBI, DHS. And I see every day 
analysts from the law enforcement side and the foreign 
intelligence side sitting side by side with access to each 
other's information. We are certainly not perfect yet. We are 
still breaking through some stovepipes. But I think the sharing 
environment between the two main communities is better than it 
has ever been. We, in fact, are launching right now a new 
endeavor to make available Federal products to our State and 
local and tribal partners. We do that entirely through the DHS 
and the FBI. We need to be careful that we give them the 
information that is useful and we not flood them with the 
amount of information that is available.
    Mr. Ruppersberger. Do we have the resources that are 
necessary? There is so much money going to Iraq. Do we have the 
resources to deal with that? That is my last question because 
the red light came on.
    Mr. Liepman. We are doing pretty well on that. Congress has 
been quite generous to us so far.
    Mr. Ruppersberger. And the communication between FBI and 
Homeland Security.
    Mr. Reyes. Thank you, Mr. Ruppersberger.
    Ms. Eshoo.
    Ms. Eshoo. Thank you. Thank you to the witnesses for your 
answers today but, most importantly, for your service to our 
country. I can't help but think that you all in the positions 
that you hold are trapped in a bad policy, trapped in a bad 
policy.
    As we examine the impacts of the key judgments in the NIE, 
I believe it directs itself toward that. Now there is a huge 
fall-off, as has been stated earlier this afternoon, between 
the NIE of this year, of 2007, and the previous one. I think 
everyone in this room and everyone in the country, regardless 
of what their political affiliation is, would agree that the 
statement in this NIE that al Qaeda has, quote, protected or 
regenerated key elements of its homeland attack capability, is 
bad news for our country.
    I want to get to a couple of areas of questioning relative 
to the NIE and the resources that are appropriated by us that 
you have and how they are being used to address this. But I 
first want to make an observation, before I get to that, on 
what some of my colleagues have put forward today, which is 
really very, very troubling, and I think misleading. It has 
been suggested that we are blind, the term we are blind in 
terms of intelligence on al Qaeda because of FISA.
    Now the first question that comes to my mind is, how indeed 
could this NIE have been put forward if in fact we are blind? 
Does anyone on the panel believe that we are blind?
    Secretary Clapper. No, ma'am.
    Ms. Eshoo. That is the term that has been used. Does anyone 
believe that we are blind?
    Does anyone believe that we are blind?
    No one.
    I mean, it is very important to get down on the record, 
because I think it is a disservice to what all of you do, first 
of all, to suggest that. And we know better because fear is the 
most powerful of human emotions. We owe more to the American 
people than just trying to scare the hell out of them and say 
after all of the expenditure of life and limb and the 
investment that the American people are now making, $10 billion 
a month in Iraq alone, that we are blind. So thank you for your 
observation on that.
    Now let me get to resources.
    The NCTC. I would like you to tell the committee how many 
people you have devoted to the shortfall that the DNI or the 
gap that the DNI has spoken of. How many actual people do you 
have devoted to this?
    Mr. Leipman. I am not sure which shortfall we are talking 
about. We currently have 400, slightly more than 400 government 
workers in NCTC.
    Ms. Eshoo. I am not asking you how many you have in your 
agency. I am asking you how many you have working on your 
intelligence portion of what the committee hearing is about 
today to secure the intelligence. This is about the NIE. This 
is a startling NIE.
    Mr. Leipman. Ma'am, we have 230 analysts right now. All of 
them work on terrorism, the majority of whom focus on the nexus 
of foreign intelligence and domestic threat.
    Ms. Eshoo. Well, in a secured setting, those are not the 
numbers that we received.
    To General Clapper, it is nice to see you again. Can you 
tell us about the resources, how you break down your resources 
and use them in this area?
    Secretary Clapper. Well, the totality of the resources 
apart from NCTC, or there are other organizations.
    Ms. Eshoo. The context--my direct question was the DNI has 
said that there is a gap in the ability to track terrorists' 
communications. So how many people, both at NCTC and in your 
agency, General Clapper, do you have on this?
    Secretary Clapper. Well, I think to be perfectly accurate 
about this, to include the population of NSA, which we 
shouldn't discuss that in open session anyway, and we would 
have to research that. And so I would like to take that for the 
record.
    [The information referred to can be found in the Appendix 
on page 109.]
    Ms. Eshoo. Is that the same for NCTC?
    Mr. Leipman. Yes, ma'am.
    Ms. Eshoo. Let me ask the following question.
    There is $10 billion being spent in Iraq per month. What 
would--what amount of that and what impact would it have 
relative to what the NIE describes as the huge challenge that 
we have today in Pakistan?
    Secretary Clapper. If I understand your question, ma'am, of 
the money that is being expended in Iraq on a monthly basis and 
if that were used for some other purpose; is that your 
question.
    Ms. Eshoo. Well, again, the hearing today is on the 
implications of the NIE regarding al Qaeda. Now, the NIE, in 
its unclassified summary with the key elements in it, directs 
itself to what we know we have been talking about here today.
    I believe that what we are doing in Iraq has really brought 
us to the descriptions that are in this NIE. That doesn't seem 
to be the policy of our country because of the administration.
    So given what the NIE has described, I would like to have 
an application of $10 billion to what the NIE directs itself 
toward, and the description of America's enemies and where they 
are growing and posing that much more of a threat to our 
country.
    Secretary Clapper. Well, a part of that threat emanates 
from Iraq. I mean, we have to--as we discussed earlier, we need 
to take on al Qaeda wherever it is. It happens right now that 
one of the places that it is present is in Iraq.
    Ms. Eshoo. Let me ask it this way.
    Mr. Reyes [presiding]. Can you wrap it up?
    Ms. Eshoo. Mr. Chairman, I have been here since early this 
afternoon. I just want to finish with this question.
    Mr. Reyes. I have, too.
    Ms. Eshoo. In terms of al Qaeda, which is a--there are many 
franchises. They are all over the world. They are limber. They 
are entrepreneurial. And the NIE describes the kind of threat 
that they are posing not only in Iraq, AQI, that is now 
growing, but elsewhere. What percentage of this overall world 
al Qaeda threat is in Iraq? What percentage do you attribute to 
Pakistan? And then what to other countries?
    Secretary Clapper. I believe, again, it would probably be 
best served to research that in the interest of accuracy and 
get that and provide that for the record.
    If you are talking about our estimates on the population of 
al Qaeda in various countries, if that is what you are----
    Ms. Eshoo. It seems to me we assign resources to 
priorities. So I just want to know how you broke down the 
percentage.
    Thank you.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Reyes. Mr. Johnson.
    Mr. Johnson. Thank you. I really like the analogy that the 
gentleman from Georgia used earlier about cancer. And on 9/11, 
we discovered a big cancer, and we went after the root causes 
of the cancer. We went into a place that was a safe haven for 
al Qaeda, and it was Afghanistan, and we rooted out and ran off 
the Taliban who had provided the safe haven for al Qaeda; isn't 
that correct?
    Mr. Leipman. Yes, sir. That is correct.
    Mr. Johnson. And it was not Iraq that was providing the 
safe haven; it was Afghanistan, correct?
    Mr. Leipman. That is correct.
    Mr. Johnson. But then we have a misdiagnosis that took 
place. We had already diagnosed the cancer, and then we got a 
diagnosis of high blood pressure emanating from Iraq. We were 
told that Iraq was the place where--had a relationship with al 
Qaeda. We found out that that was not true. Misdiagnosis. We 
were told that there were weapons of mass destruction. That was 
not true. We were told that there was an attempt to obtain 
nuclear materials from Niger, and that turned out to not be 
true.
    And then instead of doing follow-up treatments for the 
cancer in Afghanistan, we then shifted our focus into treating 
the high blood pressure that was not even--which was a 
misdiagnosis, and we then enabled the cancer to spread to other 
organs.
    And so now we have a situation where, because we took our 
attention off of clearing up the residual cancer, if you will, 
down in Afghanistan that had been run off into the mountains of 
Pakistan, now we got a resurgence of the situation with both 
the Taliban and Afghanistan in Pakistan.
    And it really was not this agreement on September the 5th 
that President Musharraf of Pakistan signed with the tribal 
elders that led to the resurgence of this cancer, was it? 
Because that had started a long time ago when we shifted our 
attention to the misdiagnosis.
    Am I speaking correctly here or what?
    Ms. Long. Congressman, if I may, I am not going to--I went 
to law school, not medical school.
    Mr. Johnson. Me, too.
    Ms. Long. I do think it is important to note that shift of 
focus or not, it is important to remember that we have had 
about--I think we believe we currently have some 23,600 U.S. 
troops in Afghanistan along with our 26 NATO partners as well 
as the Coalition members, so we have never----
    Mr. Johnson. We have got roughly about 145,000 troops now 
bogged down in a civil war in Iraq. And in that war in Iraq, we 
have fostered more terrorist development.
    And so I say these things to just point out the fact that 
the American people don't really have a lot of confidence in 
this Administration to actually confront the issues that are 
addressed in the National Intelligence Estimate that has been 
compiled by you all, and we appreciate the great work that you 
have done.
    But let me ask you in terms of al Qaeda's ability to obtain 
chemical, biological, radiological or nuclear (CBRN) material, 
what are those prospects now, and has our government been 
preparing for the possibility that those kinds of attacks could 
be levied upon the American people inside the boundaries of the 
United States of America?
    Mr. Verga. Al Qaeda has the stated objective of obtaining 
weapons of mass destruction, chemical, biological, 
radiological, nuclear materials. Even before the NIE came out, 
we recognized that as a threat.
    We have had--in 1996 there was a Defense Against Weapons of 
Mass Destruction Act that was passed that the Department of 
Defense has been doing for training in about 120 cities around 
the country. The Congress has authorized and funded 55 National 
Guard weapons of mass destruction civil support teams--excuse 
me, 52 of which are now operational. The other three will be 
operational shortly.
    United States Northern Command and the Secretary of Defense 
has authorized them, a force package necessary to respond to a 
CBRN attack inside the United States.
    So the short answer to your question is yes, we recognize 
the threat and yes, we have been preparing to deal with it.
    Mr. Johnson. Thank you.
    The Chairman. Thank you.
    The gentleman from New Jersey, Mr. Saxton, has a question 
and the gentleman from Texas has a question, and then we will, 
with the agreement of the Chairman of the Intelligence 
Committee, we will then go into a closed session which will be 
in room 2212.
    All right. Mr. Saxton, then Mr. Reyes.
    Mr. Saxton. I just want to take one minute to thank you for 
holding this hearing and to express my great appreciation for 
the time the witnesses have spent with us testifying here 
today, and thank you all for the job that you are doing, which 
is a very, very difficult one.
    I will never forget being in this room in 1990 when the 
Secretary of Defense came here and said, I have got good news 
and bad news. He said the good news is the Soviet Union is 
going to go away. The bad news is the threat isn't. It is just 
going to change.
    And unfortunately he--fortunately he suggested, 
unfortunately we never carried through with making the changes 
that were necessary to meet the new threat, because we didn't 
know what the new threat was going to be, nor did anybody else 
in this country, until well into the 1990's.
    And so what you have heard today from some of the members 
is a level of frustration, not so much from those of us who 
lived through the 1990's and 2001 here in this room and in the 
adjoining rooms, but from folks who got into this, came a 
little bit later than those of us who had the opportunity to 
watch the changes manifest themselves and to deal with the 
frustrations of trying to change our political structure, the 
structure of our Administration, the structure of our 
intelligence-gathering apparatus and the structure of our 
military. Keeping in mind that the only military people who 
train for this mission were people numbering about 40,000 who 
happened to belong to the Special Operations Command. The rest 
of our military was configured for a completely different 
mission.
    And so I appreciate the frustration that I hear from some 
of our colleagues, but I just wanted you to know that those of 
us who have perhaps lived through this in a different setting 
than some others understand how difficult it is to change and 
how difficult it is to meet this new threat.
    And there are lots of analogies that can be used which I 
will save for another time.
    But thank you for what you do.
    The Chairman. Thank the gentleman.
    Mr. Reyes.
    Mr. Reyes. I just want to quickly wrap up by--I also want 
to echo my good friend from Jersey's comments thanking you for 
your service, because I know you have been here a long time 
this afternoon, and it has to be frustrating knowing the 
challenge that we face in trying to figure out how can we best 
apply the precious resources that we have.
    But I have--in March I was in Afghanistan with General 
McNeal, and at the time we were talking about the reported 
spring offensive that was--that the Taliban had threatened to 
charge, to implement. And he told us that he had asked for 
additional troops, and the answer had been ``no'' because of 
Iraq, because we were using all of the available troops in 
Iraq. And so there were no reinforcements.
    I mention that because there are real consequences to what 
Mr. Johnson and others have said about the effort that is 
taking up precious resources in Iraq versus our ability to 
support Afghanistan the way at least General McNeal and others 
would like.
    The other thing that the--the other comment that I have is 
it is my understanding, General Clapper, that it is a well-
known fact that Osama bin Laden and Zawahiri do not communicate 
by any means that we would be able to intercept using our FISA 
capabilities; is that true or not?
    Secretary Clapper. Well, to the best of our knowledge, we 
believe that they use couriers or some other means, but they 
are certainly very OPSEC, operation security conscious.
    Mr. Reyes. Just very quickly. Where are they on our target 
list? Are they--are they in the top 10 or----
    Secretary Clapper. They are still considered very high 
priority.
    Mr. Reyes. Thank you.
    And thank you again, and, Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    Let me thank the members of the Intelligence Committee, 
members of the Armed Services Committee that have been here 
today, and special thanks to the panel. And I want to say 
publicly, we appreciate your service and your being with us 
today, and some of the questions have been difficult. We 
appreciate your candor and your answers.
    So then, without objection, we will close this part of the 
hearing and go to room 2212. But you have to get into 2212 
through next door, 2216.
    So don't get lost between here and there in the middle, and 
we will take that up in just a few minutes.
    [Whereupon, at 4:30 p.m., the committees proceeded in 
closed session.]


======================================================================



                            A P P E N D I X

                             July 25, 2007
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 25, 2007

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 25, 2007

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 25, 2007

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MS. ESHOO

    Secretary Clapper. The ability to track terrorist communications is 
not solely a number of personnel issue. The ability to effectively 
exploit terrorist communications involves several factors: the 
appropriate technology to collect communications, analyze the data, and 
disseminate the intelligence. Additionally, having the right ``mix'' 
and balance of human resources to conduct the business of exploiting 
communications has and always will be a never ending challenge to the 
Intelligence Community. The right ``mix'' includes linguists, 
technology experts, and communications and all-source analysts to put 
the ``terrorist'' intelligence puzzle together.
    More importantly, the advancement in modern communications over the 
last 30 years has afforded terrorists the ability to effectively 
communicate with each other without much recourse. The gap discussed by 
the DNI was created because the Foreign Intelligence Surveillance Act 
(FISA) did not keep pace with these changes in technology. Merely 
adding resources did not solve the fundamental flaw in the FISA 
requiring the Intelligence Community to spend time and effort providing 
privacy protections to foreigners overseas. The gap was mitigated when 
Congress enacted the Protect America Act (PAA) and updated FISA. To 
effectively track terrorist communications, we need people, the right 
``mix'' of people, the technology and updated legal authorities; 
without these elements, we put our country at risk for warning against 
a terrorist attack. [See page 51.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. ISSA
    Ms. Long. Ms. Mary Beth Long provided the information to Rep. 
Darrell Issa in a letter dated 9 August 2007. [The letter is retained 
in the committee files and can be viewed upon request.] [See page 45.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 25, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. When was witness aware of Abu Musab al-Zarqawi and 
what was he doing?
    Mr. Gistaro. Abu Musab al-Zarqawi had been an active participant in 
a variety of militant/terrorist activities since the early 1990s, 
working with a broad network of associates, including al-Qa'ida. 
Following U.S. and Coalition action in Afghanistan in late-2001, al-
Zarqawi looked to capitalize on the growing instability in the region 
to advance his terrorist agenda, including through longstanding 
relationships and personal ties with like-minded extremists stretching 
from Afghanistan to the Levant. Our understanding is al-Zarqawi had 
reestablished ties by mid-2002 to extremists in Iraq to broaden his 
network and expand his capability to undertake terrorist operations 
against Israeli, Jordanian, and other western interests in the region.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. Clearly, al-Qaeda has now been involved in high-
visibility bombings of civilian populations in Iraq that have been 
spread across not only American television, international television, 
but television in the Arab world. Has that diminished the popularity of 
al-Qaeda. the bombings of civilians? In newscasts which identify the 
bombings as being attributed to al-Qaeda, has that diminished their 
popularity in the general Muslim community worldwide? What is your take 
on that?
    Mr. Gistaro. Over the past several years, we have seen indications 
that public support in predominantly Muslim countries for al-Qa'ida's 
tactics has continued to wane. Results of a Pew Poll study released in 
July 2007 showed a drop in support for suicide bombing in seven of 
eight Muslim countries surveyed between 2002 and 2007, and declining 
confidence in Usama Bin Ladin in all seven Muslim countries surveyed 
between 2003 and 2007--with the greatest decrease in Jordan, reflecting 
widespread condemnation of the 9 November 2005 attacks on hotels in 
Amman. Data from this same study found that a majority of respondents 
in 11 of 12 predominantly Muslim countries cited television as their 
primary source of news, suggesting that most Muslim audiences primarily 
receive information on al-Qa'ida targeting of civilians through 
television broadcasts.
    Aside from the study results, we also have seen al-Qa'ida take 
steps over the past year to continue to defend or clarify tactics used, 
specifically related to bombings of Muslim civilians. In an early-April 
2008 response to questions submitted by al-Qa'ida supporters and 
sympathizers from mid-December 2007 through mid-January 2008 via an 
``open interview'' on the Internet, Ayman al-Zawahiri defended and 
justified situations in which al-Qa'ida actions resulted in Muslim 
civilian casualties. Zawahiri's comments addressed questioners who 
specifically cited Muslim casualties from the December 2007 Algeria 
bombings conducted by al-Qa'ida in the Maghreb. Zawahiri's defense was 
also likely in part a response to comments made by several leading and 
influential clerics, including Sayid Imam al-Sharif, aka Dr. Fadl, a 
Zawahiri mentor and early ideological leader of the jihadist movement, 
who have publicly raised questions over the last year about al-Qa'ida's 
use of tactics that result in civilian deaths.

                                  <all>

</pre></body></html>
